<html>
<title> - NUCLEAR TERRORISM PREVENTION: STATUS REPORT ON THE FEDERAL GOVERNMENT'S ASSESSMENT OF NEW RADIATION DETECTION MONITORS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     NUCLEAR TERRORISM PREVENTION: 
                      STATUS REPORT ON THE FEDERAL 
                GOVERNMENT'S ASSESSMENT OF NEW RADIATION 
                           DETECTION MONITORS 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2007

                               __________

                           Serial No. 110-63


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-317 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MICHAEL F. DOYLE, Pennsylvania       STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

               David L. Cavicke, Minority Staff Director

                                  (ii)
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
DIANA DeGETTE, Colorado              ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana              Ranking Member
    Vice Chairman                    GREG WALDEN, Oregon
HENRY A. WAXMAN, California          MIKE FERGUSON, New Jersey
GENE GREEN, Texas                    TIM MURPHY, Pennsylvania
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             MARSHA BLACKBURN, Tennessee
JAY INSLEE, Washington               JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)





























  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................     6
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     8
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................     9

                               Witnesses

Gene Aloise, Director, Natural Resources and Environment 
  Division, U.S. Government Accountability Office................    11
  Accompanied by Keith Rhodes, Chief Technologist, U.S. 
    Government Accountability Office
    Prepared statement...........................................    13
    Answers to submitted questions...............................    74
Vayl Oxford, Director, Domestic Nuclear Detection Office, U.S. 
  Department of Homeland Security................................    27
  Accompanied by Huban A. Gowadia, Assistant Director, Mission 
    Management, Domestic Nuclear Detection Office, U.S. 
    Department of Homeland Security
    Prepared statement...........................................    29
David Huizenga, Assistant Deputy Administrator, Office of 
  International Material Protection and Cooperation, National 
  Nuclear Security Administration, U.S. Department of Energy.....    34
    Prepared statement...........................................    35
    Answers to submitted questions...............................    83
Paul A. Schneider, Under Secretary, Management, U.S. Department 
  of Homeland Security...........................................    38
    Prepared statement...........................................    41
    Answers to submitted questions...............................   103

                           Submitted Material

Letter of March 11, 2007 from Messrs. Dingell and Stupak to 
  Secretary Chertoff.............................................   157
Letter of July 2, 2008, from Elaine C. Duke, Department of 
  Homeland Security, to Mr. Dingell..............................   159
Letter of September 21, 2007 from Messrs. Dingell and Stupak to 
  Secretary Chertoff.............................................   161
Letter of February 25, 2008 to Mr. Dingell from Secretary 
  Chertoff.......................................................   165
Committee exhibit binder.........................................   167


NUCLEAR TERRORISM PREVENTION: STATUS REPORT ON THE FEDERAL GOVERNMENT'S 
             ASSESSMENT OF NEW RADIATION DETECTION MONITORS

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2007

              House of Representatives,    
                  Subcommittee on Oversight
                                and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2123, Rayburn House Office Building, Hon. Bart Stupak 
(chairman) presiding.
    Present: Representatives Melancon, Green, Inslee, 
Whitfield, Walden, Murphy, Burgess, and Barton.
    Staff present: Richard Miller, John Sopko, Chris Knauer, 
Scott Schloegel, Kyle Chapman, Hasan Sarsour, Angela Davis, 
Alan Slobodin, Dwight Cater, and Garrett Golding.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will come to order. Today we have 
a hearing entitled, ``Nuclear Terrorism Prevention: Status 
Report on the Federal Government's Assessment of New Radiation 
Detection Monitors.''
    Before we begin, I want to let you know that Ranking Member 
Whitfield and I discussed our desire to keep as much of this 
hearing in open session as possible. It is a long-standing 
tradition of this committee and this House to keep our hearings 
open to the American public. If--and that is a big if--we need 
to go into closed session to have a few questions answered by 
our witness, we will. But it will be our intent to make sure 
that the vast majority of this hearing is held in open session.
    I also remind Members that the purpose of this hearing is 
to discuss the management and validity of the ASP testing 
process. We are not here to discuss the scientific results of 
DNDO's testing or which machine may be better or worse.
    Each Member will be recognized for their opening statement, 
5 minutes for an opening statement. And I will begin.
    Preventing terrorists from smuggling radioactive material 
or a nuclear weapon into this country is our Nation's highest 
homeland security priority. Since 1993, the International 
Atomic Energy Agency has confirmed 16 incidents of trafficking 
in highly enriched uranium or plutonium and 540 cases of 
illicit trafficking in nuclear or radiological materials. A 
significant percentage of that material could be used to 
produce a nuclear weapon or a dirty bomb. The co-chair of the 
9/11 Commission, former Governor Tom Kean, summed it up when he 
said, ``Preventing terrorist access to weapons of mass 
destruction warrants a maximum effort by our Government.''
    Radiation detection equipment is currently deployed at our 
ports and borders. By using a two-step process coupled with the 
United States Customs and Border Protection procedures, CBP is 
able to identify the types of radioactive material in cargo 
containers. As cargo enters the United States, it is screened 
through polyvinyl toluene radiation detectors at the primary 
inspection stage. These polyvinyl, or PVT, detectors will alarm 
if the cargo contains a nuclear weapon or innocuous forms of 
naturally occurring radiation, which is present in substances 
such as granite, bananas and kitty litter. If there is an 
alarm, CBP officers pull the cargo container aside to conduct a 
secondary inspection with a hand-held radioactive isotope 
identification device, or RIID, to determine whether or not the 
radiation is coming from an innocuous source or an actual 
threat. If necessary, physical inspection of the cargo may 
follow.
    The Domestic Nuclear Detection Office, DNDO, is developing 
the next generation of radiation detection devices called 
advanced spectroscope portals, ASPs. ASPs have potential to 
distinguish possible threats from innocent cargo, and thereby 
reduce the number of nuisance alarms that have to be 
investigated by the CBP. This ability to better differentiate 
threats from benign materials is helpful in high-volume 
locations to speed up the inspection process.
    In October 2006, the Government Accountability Office, GAO, 
found that DNDO's cost-benefit analysis did not justify DHS's 
plan to spend $1.2 billion for purchasing and deploying ASPs. 
The GAO recommended that DNDO conduct further testing of ASP 
systems.
    In response to GAO's critical review, Congress restricted 
DNDO from expending funds for full-scale procurement of ASP 
until the Secretary of Homeland Security certifies that the 
ASPs will provide a--and I quote now--``significant increase in 
operational effectiveness.''
    In January 2007, I, along with Chairman Dingell and Ranking 
Members Barton and Whitfield, asked the GAO to review DNDO's 
testing. DNDO did their phase 1 at the Nevada test site in late 
February through early March. Phase 2 was report writing. And 
then DNDO then conducted additional phase 3 testing in late 
March through early April.
    Today we will hear that GAO has significant concerns about 
DNDO's testing.
    First, GAO reports that DNDO gave the three ASP vendors 
access to many of the packages that would be tested. This 
allowed the vendors to calibrate their machines to many of the 
radioactive sources prior to the tests. GAO has expressed 
concerns that this may have biased the ASP test results.
    Second, GAO raised concerns that the tests did not assess 
the detection limits of these new ASP machines. Nearly a year 
ago, even before DNDO commenced testing, the Department of 
Energy asked DNDO to conduct special tests to determine the 
limits of detection for these ASP machines based on masking 
material they routinely encounter in international commerce.
    Unfortunately, DNDO did not conduct these outer-limit 
tests. Instead, DNDO is doing computer simulations, referred to 
as injection studies, which may be informative but also need to 
be validated. However, GAO believes that these injection 
studies should not be considered a substitute for actual 
testing.
    It is critical to know the level at which the ASPs can 
detect masked radioactive material. If DNDO doesn't know the 
outer detection limits of these new ASP machines, dangerous 
materials could possibly slip through our borders without the 
CBP officers' knowledge. Federal officials need to be 
absolutely sure they understand exactly how these new machines 
will perform before they are deployed to keep us safe. After 
all, Department of Homeland Security has well-functioning 
radiation portal monitors in place today, so there is not an 
urgent need to rush certification of the ASPs.
    DNDO officials have told the committee staff and GAO that 
they do not intend to wait for the results of the injection 
studies before they issue a certification this fall. It is hard 
to fathom how DNDO can credibly certify ASPs as ``significantly 
increase operational effectiveness'' without completing the 
injection studies and subjecting them to external validation 
review.
    I look forward to hearing from DNDO's explanation on why it 
is rushing certification. By all appearances, the arbitrary 
certification deadline appears to be driving the testing, 
rather than the testing driving the certification. Why isn't 
DNDO driven by a desire to obtain valid, unbiased and complete 
test results prior to any certification?
    Just 1 week after the Nevada test campaign was completed, 
and even before the data was analyzed, the director of DNDO was 
declaring that he believed the Department of Homeland 
Security's Secretary would approve full-scale procurement by 
July. A June 26th certification deadline was the target. Then 
the certification deadline was pushed to July 28th. After a 
decision was made to conduct injection studies, it was moved to 
September 21. Then on August 30, DHS advised Congress that CBP 
was conducting 2 more months of field testing with new 
software, and the date would be further extended.
    Not only is the schedule shifting, but the data to be used 
in certification is also shifting. Originally, phase 1 data 
would be used for certification. Now we learn that two 
additional sets of tests, which were not designed for 
certification and may lack sufficient statistical power, are 
going to be used for certification.
    Just prior to GAO finalizing its assessment in late July, 
Under Secretary for Management Paul Schneider announced an 
independent review of DNDO's basis for certification. On the 
one hand, we are pleased to see DHS initiate the independent 
review that was separate from the DNDO. On the other hand, we 
are disappointed to see public statements from DHS disparaging 
the GAO qualifications to assess the testing plans carried out 
by DNDO. This created the appearance that DHS was seeking to 
organize a review panel to insulate DHS from what they 
anticipated would be a critical assessment by GAO.
    On August 3, the Under Secretary requested Dr. Peter Nanos 
of the Defense Threat Reduction Agency to head up the review 
effort and directed him to complete the review by September 17. 
Last week we learned that John Higbee of the Defense 
Acquisition University replaced Dr. Nanos. Then, just last 
Friday afternoon, the committee was informed that Mr. Higbee 
has now been removed, and instead Mr. George Thompson of the 
Homeland Security Institute will head the review team.
    I look forward to hearing why it is that Under Secretary 
Schneider has appointed three different people to head up the 
independent review in 6 weeks' time. I am also curious to learn 
why Mr. Schneider believes that his latest appointee, Mr. 
Thompson, is independent, given the fact that his organization 
receives its funding from DHS.
    I look forward to hearing these answers to several 
questions today: What events have caused DNDO to delay 
certification three times? Did DNDO test the limitations of the 
ASP machine in its tests at the Nevada test site? If not, why 
not? Were the phase 1 tests potentially biased? Is DNDO relying 
on computer simulations to make up for weaknesses in the 
testing plan?
    Should DNDO certify performance, leading to a $1.2 billion 
purchase, based merely on a computer simulation, or should 
there be validation in the field first? How can DNDO certify 
ASPs before it completes and fully reviews the injection 
studies?
    After certification has been submitted to Congress, how 
many ASPs does DNDO plan to purchase, and will these be 
deployed for primary or secondary screening? Has DNDO been 
moving the goal posts on both deadlines and the elements it was 
using to develop its certification?
    In summation, the ASP technology looks promising, but there 
are enough questions about the testing that I cannot be 
comfortable with a possible DHS certification of the ASPs. As 
is frequently said, we need to be right 100 percent of the 
time, and the terrorists only need to be right once.
    Given all that I have learned thus far, I think it would be 
cheap insurance for DNDO to do a new and truly blind testing, 
using comprehensive test protocols, which would give us 
accurate data regarding the capabilities and limitations of the 
ASP machines.
    We need to be sure our technology can be right 100 percent 
of the time. After all, CBP says the technology that we employ 
every day works. So it is not imperative that we rush ASP 
machines into full-scale deployment.
    With that, I yield to my friend, Mr. Whitfield, for an 
opening statement.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Mr. Chairman, thank you very much for having 
this important hearing on radiation portal monitors.
    Since the attacks of 9/11, the subcommittee has held 
several hearings about the security of our ports and borders. 
Specifically, we have examined how effectively the programs 
were being carried out to protect the United States from 
terrorists who may attempt to smuggle radiological material 
into the U.S. for an attack.
    The Department of Homeland Security, of course, has 
responsibility for domestic ports and the Department of Energy 
for overseas ports. Previous hearings have demonstrated how 
difficult it is to scan millions of cargo containers at 
hundreds of ports for radioactive material.
    Over the years, we have coordinated with the Government 
Accountability Office to identify problems with the initial 
deployment rate of radiological portal monitors. We also 
identified problems with the methods used by the U.S. Customs 
and Border Protection to target and screen cargo at foreign 
ports before it is shipped to the United States.
    As of February 2007, over 900 radiation portal monitors had 
been installed at domestic ports throughout the country. 
Currently, about 90 percent of the cargo crossing our borders 
is scanned for radioactivity, and I think we should all feel 
good about that.
    If radiological materials are detected during primary 
scanning by a portal monitor, the U.S. Customs and Border 
Protection conducts a secondary screening to pinpoint the 
location and identify radiological materials in cargo 
containers.
    According to GAO, the screening technologies in use are the 
best that have been available. However, new technologies are 
needed to secure our borders from a wider range of radiological 
threats and simultaneously reduce the impact on the flow of 
legitimate cargo. DHS and DOE both believe that the advanced 
spectroscopic portal, or ASP, is the best and most likely 
replacement for existing portal monitors and hand-held 
detectors.
    Earlier this year, I was pleased to join Chairman Stupak in 
a joint request to the GAO to review the efforts of the 
Department of Homeland Security to test and certify whether ASP 
monitors are ready for full-scale deployment. We must know that 
these monitors will work before we spend billions of dollars.
    GAO will provide testimony today that outlines its concerns 
with the approach DHS has used to assess the effectiveness of 
the ASP monitors. It is important to point out that DHS has not 
completed its technical review of the ASP monitors, and the 
Department may be on a path toward resolving many of GAO's 
technical concerns.
    There are several unanswered questions regarding the use of 
ASP monitors for primary inspections. However, the expert 
scientists and Government officials we have interviewed agree 
that the Department of Homeland Security should proceed with a 
limited deployment for secondary inspections. In the opinion of 
one DOE expert we interviewed, the deployment of ASP monitors 
in secondary screening will provide a radical improvement over 
the hand-held devices currently in use.
    GAO recommends that DHS delay its certification of the ASP 
monitors until the Department completes all ongoing research. 
GAO also recommends that outside experts review this research 
and determine whether more testing is necessary.
    These recommendations are certainly reasonable, and I 
certainly look forward this morning to the Department's views. 
However, in the meantime, I hope that available funds will be 
used for a limited deployment of ASP monitors in secondary 
screening as soon as possible.
    I look forward to the hearing, and thank the witnesses for 
being with us this morning. And I yield back my time.
    Mr. Stupak. I thank the gentleman.
    Mr. Melancon, opening statement?
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    I would like to ask unanimous consent to place a full 
statement into the record and paraphrase it.
    Mr. Stupak. Without objection.
    Mr. Green. This is important. I represent the Port of 
Houston and have been on the docks many times to watch our 
Customs agents, both with the personal radiation detectors, but 
also with the portal that they drive through. And I want to 
make sure that we move that cargo as fast as we can with the 
containers, but also that the technology is there so we can 
have that feeling when they are going down our roads and 
leaving the Port of Houston.
    So, Mr. Chairman, I appreciate the hearing today, and I 
look forward to the testimony. And like I said, I will put my 
full statement into the record. Thank you.

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    Mr. Chairman, thank you for holding this hearing on the 
selection of next generation radiation portal monitors. This is 
an important issue for our nation and for my hometown of 
Houston, and I am glad this committee is exercising its 
oversight in this area.
    I welcome today's witnesses and I look forward to their 
testimony.
    For the past 6 years, since the terrorist attacks on the 
World Trade Center and the Pentagon, preventing nuclear and 
radioactive material into the country, and protecting our 
country from a ``dirty bomb'' has been one of our Nation's top 
priorities.
    We have refocused our efforts on scanning incoming cargo 
for dangerous radiation, and Congress has worked with the 
Department of Homeland Security and our ports to deploy the 
necessary technology to protect this country from that threat.
    As we look to deploy the next generation of detection 
equipment, it appears DHS is rushing to deploy new portal 
monitor technology despite significant questions that the 
technology is as efficient, or as effective as DHS claims.
    The current radiation portal monitors which use ``Poly 
Vinyl Toluene'' or PVT, are effective at detecting radiation, 
but cannot distinguish between naturally occurring radiation 
such as that found in tile or granite, and radiation coming 
from a potential threat, such as highly enriched uranium.
    These false positives require a secondary inspection with a 
handheld ``Radiation Isotope Identification Device'' to 
determine the type and source of the radiation--the current 
process is effective, but labor intensive.
    Because of this, DHS has moved forward toward purchasing a 
new technology, advanced spectroscopic portal monitors, or 
ASPs.
    ASPs have the potential capability to detect what type of 
radiation is being emitted thereby negating the need for a 
second inspection with the intended effects of speeding up 
commerce through our sea and land ports, and reducing the 
amount of labor needed to operate the RPMs.
    Unfortunately, data on the effectiveness of ASPs is 
inconsistent at best, as the Government Accountability Office 
concluded in their October 17, 2006 report, which raises 
serious questions as to whether DHS should be committing such a 
large amount of money--$1.2 billion over 5 years--to this 
technology without completing and analyzing further test 
results.
    The district I represent in Texas is home to the Port of 
Houston. This port is ranked first in the United States in 
foreign waterborne tonnage, second in the U.S. in total 
tonnage, and tenth in the world in total tonnage.
    I work frequently with the Port Authority and business all 
along the port, and understand the importance of moving cargo 
safely and quickly.
    I spoke with folks at the port when I learned we were going 
to have this hearing to see if they were experiencing delays 
due to secondary inspections, and learned that, aside from a 
few instances, the RPMs do not negatively impact the gate 
process.
    This is an indication that the current RPMs are not 
significantly delaying commerce, and we should not rush out a 
new technology that has not been thoroughly tested and agreed 
upon by all involved entities, including the Domestic Nuclear 
Detection Office, the Department of Energy, and Customs and 
Border Protection.
    There is broad consensus that PVT and RIID technology is 
limited, however, and more susceptible to human error, so we 
should be looking for a more efficient, more reliable 
technology.
    ASPs could provide more reliable readings on radiation 
entering the country, but more testing needs to be done to 
guarantee that before we spend more than a billion dollars on 
ASP monitors.
    I am concerned DHS is rushing to deploy this technology 
without thorough testing.
    DHS and DNDO need to provide Congress with more 
comprehensive testing results and a better analysis of 
deployment and maintenance costs before we commit taxpayer 
dollars to purchase this equipment.
    Again, I thank the chairman for holding his hearing on this 
important issue, and I look forward to the testimony from our 
witnesses.
                              ----------                              

    Mr. Stupak. I thank the gentleman from Texas.
    People will be bouncing in and out. There is a health care 
hearing up on the third floor, so I think Members will be 
moving in and out.
    The ranking member of the full committee, Mr. Barton, for 
an opening statement, sir.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman Stupak, thank you, Ranking 
Member Whitfield, for today's hearing.
    Preventing terrorists from smuggling the makings of a 
nuclear bomb or dirty bomb into America is our topic today. And 
I doubt that there are many more important topics that are 
going to be considered today in Congress.
    The existing system used by the Department of Homeland 
Security to scan cargo for radioactive threat materials at 
ports of entry is generally effective, and I would accentuate 
the ``generally.'' it is not perfect. However, some of the 
scanning technologies that the Department currently relies upon 
to do the job are outdated. I don't think there is any 
controversy about that. And they have inherent weaknesses. 
These weaknesses could leave the country vulnerable.
    For instance, we cannot continue to rely on the hand-held 
radiation detectors to pinpoint the location of suspect nuclear 
materials in a fully loaded cargo container. These hand-held 
detectors do have well-documented problems and unacceptable, at 
least to me, failure rates.
    The GAO has raised important concerns regarding the 
Department of Homeland Security's research into new scanning 
technology. GAO has recommended that the Department delay its 
certification of its best new technology, the advanced 
spectroscopic portal monitor.
    The Department of Homeland Security has convened a summit 
of technical experts this past June to resolve the outstanding 
issues. The meeting included more than 25 people from national 
laboratories, Homeland Security, the Department of Energy and 
the GAO. With that many experts in one room, it is surprising 
that people could even agree on the time of the day that they 
were meeting. But we have interviewed some of the people that 
participated in that meeting, and they all agree that the 
research currently under way will show whether full-scale 
deployment is appropriate. They also agree that we should push 
forward with a limited deployment of these new monitors for 
secondary screening at our busiest ports.
    Experts at the Department of Energy do not believe any 
further fundamental technical research is needed to prove 
whether the new machines are a significant improvement over the 
current hand-held detectors. It would seem that a limited 
deployment of the new machines next year would allow the 
Department of Homeland Security to closely examine their 
effectiveness in real use out in the field.
    I hope that the current disagreements between the General 
Accounting Office and the Department of Homeland Security can 
be resolved. Let's not ignore a good idea while we continue 
rigorous testing to perfect or understand the idea. We can do 
both. And because this is about shielding our people from those 
who mean to kill us, we need to do both. The enhanced 
protection from these limited deployments should not be 
delayed.
    I hope that today's hearing is productive. I thank the 
chairman and ranking member for holding it, would yield back, 
and would point out, as has already been pointed out, there is 
another hearing upstairs on the Health Subcommittee, so I will 
be going back and forth.
    But thank you, Mr. Stupak and Mr. Whitfield, for this 
important hearing.
    Mr. Stupak. Thank you, Mr. Barton.
    Mr. Walden, opening statement, please, sir.
    Mr. Walden. Mr. Chairman, I am going to waive my opening 
statement. Appreciate the opportunity. Look forward to hearing 
from the witnesses.
    Mr. Stupak. Mr. Murphy, opening statement, please.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman and Ranking Member 
Whitfield.
    Everyone recognizes that we have to take all measures that 
are necessary to prevent dangerous nuclear material from 
entering this country. And while it is important to be 
efficient in our border searches and preserve the rights of 
American citizens while doing so, the safety of the American 
people must take precedence. We can't sacrifice safety for the 
sake of efficiency, because it only takes one mistake to create 
a disaster for all.
    The subject of this hearing is the use of advanced 
technology to detect dangerous nuclear materials that may be 
entering this country in cars, trucks and cargo containers on 
ships. When using this technology, the absolute worst outcome 
would be a false negative finding; that is, a case where the 
detection equipment fails to recognize the presence of a 
dangerous nuclear material that is actually there.
    I understand that no nuclear detection equipment is 
absolutely perfect, but, as we move forward with advanced and 
efficient technologies, we must be careful not to increase the 
possibility that truly dangerous materials will go undetected.
    I should mention one of the companies that has been 
selected by DHS to develop and deploy the new advanced 
spectroscopic portal, or the ASP, technology is Thermo Fisher 
Scientific, located in my congressional district. I am 
confident, given the proper mandate, time and guidance by DHS, 
Thermo Fisher and other companies will be able to produce and 
deploy equipment that is both more efficient and more effective 
than the equipment we now use.
    But on the way toward this goal, I want to make sure we do 
not make any mistakes. We have to maintain the maximum level of 
protection that technology and human effort will allow. I know 
when I visited our borders last year at Laredo, TX, I saw some 
devices in use that detect radioactive items that come through. 
And I understand that, after there is some detection, other 
screening has to take place. And we are looking for a way to do 
this in an efficient way that keeps false negatives down to 
zero and also helps speed the efficiency of this whole process.
    Throughout this, now, I look forward to hearing how DHS and 
the Domestic Nuclear Detection Office plan to conduct and 
hopefully improve this whole process with their current nuclear 
detection technology and deployment programs to minimize the 
possibility that dangerous nuclear materials will enter our 
country.
    I thank you very much, and I yield back, Mr. Chairman.
    Mr. Stupak. I thank the gentleman.
    That concludes the opening statements by members of the 
subcommittee. Any other statements for the record will be 
included at this time.
    [The prepared statement of Mr. Dingell follows:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

     Today, 1 week after the sixth anniversary of 9/11, this 
subcommittee is holding a hearing on one of our most important 
homeland security priorities: the Government's ability to 
prevent a nuclear weapon or a radiological bomb from being 
smuggled into this country and detonated.
     The focus of today's hearing will be a Government 
Accountability Office study of the Department of Homeland 
Security's testing of a new generation of radiation portal 
monitors, known as Advanced Spectroscopic Portals, or ASPs. A 
bipartisan request asked GAO to determine whether the 
Department of Homeland Security conducted fair and adequate 
tests of these portals before spending an estimated $1.2 
billion to replace the radiation portal monitors now in use at 
our ports and border crossings.
     Because of concerns raised last year by GAO regarding a 
faulty cost-benefit analysis done by the Department of Homeland 
security on these new portal monitors, the Appropriations 
Committee, in a bipartisan action, prohibited spending the 
funds designated to fully purchase these new machines until the 
DHS Secretary certified that ``a significant increase in 
operational effectiveness has been achieved.'
     Today, GAO will report that they have significant concerns 
about how DHS conducted tests.
    First, GAO will report that the Domestic Nuclear Detection 
Office gave the three competing vendors advanced access to many 
of the packages they would be using for tests. This allowed 
vendors to calibrate their machinery to detect the specific 
radiological materials and the various combinations of 
shielding and masking materials prior to the actual tests.
     Second, GAO will report that the tests did not assess the 
detection limits of these new machines. The Department of 
Energy specifically requested that DHS conduct tests to learn 
the masking limits of the new machines, based on what they had 
found in international commerce, but apparently, DHS could not 
find time to address this concern.
     In sum, GAO found that DHS did not conduct a fair and 
balanced evaluation of the new machines. GAO does not believe 
the results ``demonstrate a significant increase in operational 
effectiveness and should not be relied upon to make a full-
scale production decision.''
     How has DHS responded to GAO's findings? As soon as they 
learned what GAO found, they launched an ``end run'' and 
created a new ``independent review panel'' to reassess the 
results. Today, we will examine how independent and qualified 
this new panel actually is.
     In addition, DHS changed the certification date and also 
changed the tests that would be considered for certification--
11th hour efforts to obfuscate errors in the original tests.
     What DHS hasn't done, which any reasonable taxpayer would 
expect, is take GAO's advice and redo the tests--something that 
will cost little in comparison to the overall $1.2 billion 
procurement. Retesting may cost less than half of one percent 
of the overall procurement, and would be money well spent. In 
the words of DHS Secretary Chertoff, ``The greatest threat we 
have to prevent is a nuclear device being detonated by a 
terrorist.''
     I want to commend the subcommittee chairman and ranking 
member for holding this hearing today. I hope that they will 
continue their strong oversight of this program. Without their 
work and that of our colleagues on the Appropriations 
Committee, I believe we would now be witnessing another DHS 
procurement debacle where billions of dollars are spent with 
few tangible results.
                              ----------                              

    Mr. Stupak. I will now call our first panel of witnesses. 
On our panel we have: Dr. Gene Aloise, Director of the Natural 
Resources and Environmental Division at the Government 
Accountability Office; and Mr. Aloise is accompanied by Dr. 
Keith Rhodes, Chief Technologist at the Government 
Accountability Office; Dr. Vayl Oxford, Director of the 
Domestic Nuclear Detection Office within the Department of 
Homeland Security; and Director Oxford is accompanied by Dr. 
Huban Gowadia, Assistant Director for Mission Management at the 
Domestic Nuclear Detection Office; and Mr. Dave Huizenga, 
Assistant Deputy Administrator of the Department of Energy's 
Office of International Material Protection and Cooperation 
within the National Nuclear Security Administration; and last 
but not least, the Honorable Paul A. Schneider, Under Secretary 
for Management at the Department of Homeland Security.
    I would like to welcome everyone to the subcommittee.
    It is the policy of this committee to take all testimony 
under oath.
    Please be advised that witnesses have the right under the 
rules of the House to be advised by counsel during your 
testimony. Do any of you wish to be represented by counsel?
    Looks like, by the nods of the head, no one wishes to be 
represented by counsel, so I will ask you all to please rise 
and raise your right hand and take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that witnesses replied 
in the affirmative.
    You are now under oath. That will include your opening 
statements.
    We will now hear a 5-minute opening statement from the 
witnesses. The witnesses may also submit a longer statement for 
inclusion in the record.
    I will now recognize Mr. Aloise for an opening statement. 
Sir, if you would, please.

   STATEMENT OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
 ENVIRONMENT DIVISION, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
     ACCOMPANIED BY KEITH RHODES, CHIEF TECHNOLOGIST, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, we are 
pleased to be here today to discuss the test methods DNDO used 
to demonstrate the capability of the next-generation radiation 
detection portal monitors and whether the tests should be 
relied upon to make a decision to procure $1.2 billion worth of 
this equipment.
    Radiation detection portal monitors are a key element in 
our national defenses against nuclear smuggling. According to 
DHS and DOE, the current system of this equipment is effective 
and does not significantly impede the flow of commerce. DNDO 
wants to improve the capabilities of the existing systems with 
new equipment with advanced technology.
     One of the major drawbacks of the new equipment is the 
substantially higher cost compared to the existing system of 
radiation detection equipment. As was earlier mentioned, in our 
March 2006 report we recommended that DNDO conduct a cost-
benefit analysis to determine if this additional capability was 
worth the considerable cost. In October of last year, we 
concluded that DNDO's analysis did not provide a sound basis to 
purchase the new detection equipment because it relied on 
assumptions rather than actual test data. We recommended that 
DNDO redo the analysis based upon actual test data and, in 
doing so, conduct realistic testing of the new equipment's 
capabilities.
    The fiscal year 2007 Homeland Security Appropriations Act 
requires that the Secretary of DHS certify that the new 
equipment will provide a significant increase in operational 
effectiveness before spending additional funds for its 
procurement. To meet this requirement, DNDO conducted testing 
of both the new and existing radiation detection equipment at 
the Nevada test site between February and March 2007. It is 
that testing that we will discuss today.
    Based on our analysis of DNDO's test plan, the test results 
and discussion with experts from DOE's national labs and 
others, we are concerned that DNDO used biased test methods 
that enhanced the performance of the new equipment. In our 
view, it is highly unlikely that such favorable test 
circumstances would present themselves under real-world 
conditions.
    Specifically, our concerns with the test methods are: 
Preliminary test runs were conducted using almost all of the 
materials and combinations of materials, so that vendors could 
collect test data and adjust their systems to identify these 
materials prior to formal testing. Also, DNDO's tests were not 
designed to test the limits of the equipment's capabilities--a 
critical flaw in the testing. Specifically, the tests did not 
use a sufficient amount of the type of materials that could be 
used to hide or mask dangerous sources. In addition, DNDO did 
not use a key standard operating procedure that supports the 
use of hand-held detectors, an important part of the current 
radiation detection system.
    As a result of concerns we and others raised that DNDO did 
not sufficiently test the limits of the new equipment, DNDO is 
planning additional studies of the test data. DNDO and the 
eventual users of the new equipment, Customs and Border 
Protection and DOE, have reached an agreement to wait and see 
whether the results of new studies provide useful data.
    In our view and the view of other experts, these studies, 
which are essentially computer simulations, may provide useful 
data but they are not as good as actual testing with nuclear 
and masking materials. We are making several recommendations 
today designed to correct the problem of DNDO's flawed tests, 
including the creation of an independent testing group within 
DHS if more testing is needed.
    Mr. Chairman, the equipment being tested is for the purpose 
of guarding against perhaps the No. 1 threat to our Nation: the 
possibility that a nuclear weapon, nuclear materials or a dirty 
bomb could be smuggled across our borders. We do not think it 
is unreasonable to ask DHS to conduct realistic and 
scientifically rigorous testing on any equipment that is used 
to guard against this threat.
    That concludes my remarks. And Dr. Rhodes and I will be 
happy to answer any questions.
    [The prepared statement of Mr. Aloise follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Stupak. Thank you.
    Now, Mr. Oxford, opening statement, please, sir.

STATEMENT OF VAYL OXFORD, DIRECTOR, DOMESTIC NUCLEAR DETECTION 
 OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY, ACCOMPANIED BY 
 HUBAN A. GOWADIA, ASSISTANT DIRECTOR FOR MISSION MANAGEMENT, 
DOMESTIC NUCLEAR DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Oxford. Good morning, Chairman Stupak, Ranking Member 
Whitfield, and other distinguished members of the subcommittee. 
I would like to thank the committee for the opportunity to 
discuss what DNDO is doing to protect this Nation against a 
nuclear or radiological attack.
    Also, I would like to take this opportunity to publicly 
thank the many partners we have had in improving our technical 
capabilities, including CBP and DOE, and the larger technical 
community, to include five national and Federal laboratories, 
and the National Institute of Standards and Technology. I am 
confident in saying that this is the first program of its type 
to draw from this breadth of talent.
    We at DNDO are optimistic about the ASP program and its 
performance capabilities as demonstrated thus far, and we hope 
to show you more during the course of this testimony.
    Regarding the nuclear threat and ASP development, there can 
be no doubt, as has already been referenced this morning, that 
the threat of a nuclear attack against the United States is one 
of the gravest that we face, and all efforts possible must be 
directed at reducing the risk of such an attack. DNDO is 
committed to doing everything possible to prevent a nuclear 9/
11.
    Shortly after 9/11, Customs made the prudent decision to 
deploy commercially available radiation detection equipment to 
address a glaring vulnerability in our Nation's homeland 
security capabilities. With that said, there were well-
understood limitations to these systems.
    The fact remains that we are facing a challenge at our 
ports and borders in trying to balance the flow of goods and 
commerce, while addressing this critical threat. Since that 
time, the Nation has matured significantly in thinking about 
homeland security and nuclear threats.
    The first step was the formation of DHS, and the second was 
the formation of my office, the Domestic Nuclear Detection 
Office, an interagency office agreed to by the executive 
branch. Upon its formation, DNDO took the responsibility for 
improving our nuclear detection capabilities, with a priority 
to improve operations at seaports and land border crossings.
    ASP systems represent a leap forward in this capability, 
promising to identify threats and drastically reduce nuisance 
alarms caused by innocent materials, provide better information 
to our Customs Officers, and resolve difficult cases. Given the 
importance of this program, DHS has gone to great lengths to 
ensure that the performance of ASP systems is well-understood 
and that the systems represent a significant improvement in 
operational effectiveness.
    The test program that we designed and implemented is as 
rigorous a test program as the U.S. Government has ever 
conducted. To ensure that systems performance was well-known, 
DNDO conducted over 6 months of testing, resulting in over 
100,000 data points.
    Testing was designed to evaluate all aspects of ASP 
performance, including the following: system qualification 
tests to demonstrate that ASP units are manufactured in 
accordance with specified design requirements; environmental 
product qualification tests to determine if the system can 
reliably perform within the operational environment; tests at 
the Nevada Test Site to evaluate ASP technical performance and 
support ASP algorithm development and secondary concepts of 
operation; New York Container Terminal tests to determine if 
ASP demonstrates a significant reduction in referral rates to 
secondary inspection compared to current PVT systems in a real 
stream of commerce; integration testing to determine if ASP 
systems are ready to deploy in an operational setting for 
secondary deployment; and finally, field validation testing 
with Customs and Border Protection to identify operational 
issues, take corrective action and ensure that CBP Officers are 
comfortable with the systems.
    We have been thorough and rigorous in our approach, 
ensuring that both we and CBP are satisfied with ASP systems 
both technically and operationally before we make any 
recommendations to the Secretary.
    In conclusion, while the current ASP systems represent a 
significant step forward in meeting our challenges, we will not 
stop here. We will continue to work with CBP and DOE to 
identify needed improvements to further optimize performance.
    Perhaps more than anything else, I caution against delaying 
progress in the pursuit of perfection and allowing critical 
limitations in our current capabilities to remain unaddressed. 
Rather, we should focus on developing a path forward to address 
this threat.
    Chairman Stupak, Ranking Member Whitfield and members of 
the subcommittee, I thank you for your attention and will be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Oxford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, sir.
    Mr. Huizenga, your opening statement, please, sir.

 STATEMENT OF DAVID HUIZENGA, ASSISTANT DEPUTY ADMINISTRATOR, 
 OFFICE OF INTERNATIONAL MATERIAL PROTECTION AND COOPERATION, 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Huizenga. Thank you, Mr. Chairman and Ranking Member 
Whitfield and other distinguished members of the subcommittee.
    Today I will be discussing the Department of Energy's 
international role in the administration's efforts to prevent a 
nuclear terrorist attack against our country.
    Our first goal is to work with our foreign partners to 
secure nuclear weapons and nuclear weapons-usable material at 
the source. By upgrading security at vulnerable nuclear sites 
in the Russian Federation and other former Soviet states and 
countries of concern, we deny terrorists access to nuclear 
weapons and the essential element of a nuclear weapon, the 
fissile material.
    Our second goal is to prevent international smuggling of 
nuclear and radiological material. The Second Line of Defense 
program, or SLD program, started in 1998, is dedicated to this 
important effort. The mission is to detect special nuclear 
material, essentially large or extremely small quantities of 
plutonium or highly enriched uranium, as well as radiological 
materials that could be potentially used as a dirty bomb.
    We are making steady progress on securing approximately 450 
border crossings, airports and feeder seaports in Russia, the 
former Soviet states, Eastern Europe and Central Asia, as well 
as equipping approximately 75 major international seaports with 
radiation detection equipment used to scan cargo containers.
    Detection of dangerous radioactive material is therefore at 
the heart of our mission. And over the last 15 years, we have 
worked with the technical experts to successfully deploy more 
than 1,500 radiation portal monitors at over 300 facilities in 
25 countries. In Russia alone, we have already equipped over a 
hundred sites with detection equipment.
    Unfortunately, we have clear evidence that the detection 
systems are working. In 2003, for example, Georgian border 
guards, using U.S.-provided portal monitoring equipment at the 
Sadakhlo border crossing with Armenia, detected and seized 
approximately 173 grams of highly enriched uranium.
    The centerpiece of every installation completed under the 
Second Line of Defense program is the radiation portal monitor, 
or RPM. We deploy RPMs that use plastic scintillators made of 
polyvinyl toluene, or PVT, to detect gamma signatures and 
modulated helium three tubes to detect neutrons. The PVT-based 
RPMs use a proven technology capable of operating effectively 
in varied and often harsh environmental conditions.
    This technology was developed to ensure nuclear material 
security at the DOE weapons sites. These monitors have been 
tested and evaluated by national laboratory technical experts 
for over three decades. The RPM detects the presence of 
radiation and feeds an alarm information to the operators, 
typically Customs agents or border guards. When the alarm is 
triggered, the vehicle or the pedestrian is retained, and hand-
held equipment is used as part of the secondary inspection to 
identify the specific radio isotope that caused the alarm.
    The hand-held identification equipment that we deploy uses 
commercially available sodium-iodide or germanium technology. 
Experience has shown that effective use of the hand-held 
equipment is highly dependent on the skill and the training of 
the on-site official as they try to locate the source of the 
alarm. Expediting proper adjudication of alarms through these 
secondary inspections is particularly important in high-volume 
locations like the major seaports.
    It is DOE's judgment that the use of the advanced 
spectroscopic portal monitors, the ASPs we are talking about 
today, will improve the rate and accuracy of the alarm 
resolution in high-volume settings.
    In order to determine the effectiveness of the ASPs, DOE is 
working with DNDO to ensure that the increased ability of the 
monitors to differentiate threats does not compromise threat 
detection. I have asked the staff at Los Alamos National 
Laboratory to work with DNDO and lead a multi-lab effort to 
collect data on the spectra of well-characterized, unshielded, 
special nuclear material--essentially threat objects--that can 
be controlled carefully at the laboratory. These data will be 
combined with the stream of commerce data already collected by 
DHS and will provide supplemental information to help validate 
the upcoming injection studies.
    In the near term, DOE is purchasing a limited number of 
ASPs via contracts awarded by DNDO. Our plan is to deploy the 
ASPs at some of our megaports locations, or our large seaports 
overseas, for use in secondary inspection.
    Under the planned approach, once the PVT monitor alarms in 
the primary inspection point, the container will be sent to the 
ASP for secondary inspection. The ASP, with a much larger 
detection surface area, larger libraries, and algorithms than 
the hand-held detectors, should provide enhanced capability to 
effectively identify specific isotopes. This will aid the 
Customs official in determining whether a container presents an 
increased risk of nuclear material.
    If the ASPs are demonstrated to be reliable under a variety 
of field conditions, we would hope to deploy them to the 
remaining megaports installations for secondary inspections.
    In closing, I would like to point out that DOE and DHS are 
working closely together to improve our nuclear and 
radiological detection capabilities. We share a common 
objective of preventing terrorists and states of concern from 
obtaining and smuggling nuclear materials that can be used in 
acts of terrorism against our country and our allies.
    I want to thank the administration and Congress for their 
continued support of our program. And I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Huizenga follows:]

                      Testimony of David Huizenga

    Thank you Chairman Stupak, Ranking Member Whitfield and 
other distinguished members of the subcommittee. Today I will 
be discussing the Department of Energy's National Nuclear 
Security Administration (NNSA) role in the interagency effort 
to prevent a nuclear terrorist attack against this country. 
More specifically, I will focus on the role of my office, the 
Office of International Material Protection and Cooperation, as 
a part of this larger, coordinated effort.
    Before I start the technical part of my testimony 
concerning radiation detection monitors, I would like to 
provide a short background on the overall mission of my office. 
I believe this will demonstrate the history and expertise that 
DOE brings to bear on the subject of the hearing today. 
Detection of dangerous radioactive materials is at the heart of 
our mission and over the last 15 years we have worked with 
technical experts to successfully deploy more than 1500 
radiation portal monitors (RPMs) at over 300 facilities and 
border crossings within over 25 countries.

                          Secure at the Source

    The first goal of my office is to secure nuclear weapons 
and weapons-useable nuclear materials by upgrading security at 
vulnerable nuclear sites in the Russian Federation and other 
countries of greatest concern to the U.S. national security. By 
working to secure nuclear materials and weapons at the point of 
origin, we continue to make important strides toward denying 
terrorists and states of concern access to nuclear weapons and 
the essential element of a nuclear weapon: the fissile 
material. We are working at 125 nuclear sites and have secured 
hundreds of actual nuclear weapons and enough nuclear material 
for thousands of additional warheads. We have completed 
security upgrades at 160 buildings containing weapons useable 
material, more than 75% of the Russian nuclear warhead sites of 
concern, including 39 Russian Navy nuclear sites, and 15 
Russian Strategic Rocket Sites. Work is underway at the balance 
of sites and is on track to be completed by the end of 2008.

                         Second Line of Defense

    The second goal of my office is to prevent smuggling of 
nuclear and radiological material at international seaports, 
airports and land border crossings. The Second Line of Defense 
program, referred to as SLD, was started in 1998 and is 
dedicated to this important effort. The SLD program is composed 
of two equally important offices: the Core Program and the 
Megaports Initiative. The Core Program focuses on securing 
border crossings, airports, and feeder seaports in Russia and 
other former Soviet States, Eastern Europe, Central Asia, and 
other key countries around the world. Under the Core program, 
approximately 450 sites have been identified to receive 
detection equipment. In Russia alone we have already equipped 
over 100 of these sites. Under our Megaports Initiative, we 
work closely with the Department of Homeland Security's Customs 
and Border Protection (CBP) and with the host governments to 
equip major international seaports with radiation detection 
equipment to screen cargo containers for nuclear and other 
radiological materials. We have identified approximately 75 
seaports of interest to us for implementation and are currently 
at various stages of engagement with approximately 40 countries 
in this regard.
    DOE/NNSA's SLD Program is also playing a key role in 
implementing the Secure Freight Initiative (SFI), a joint DHS-
DOE and DOS effort started last December. This is an 
unprecedented effort to build upon existing port security 
measures by enhancing the U.S. Government's ability to scan 
containers overseas for nuclear and radiological materials 
using both radiation detection equipment and non-intrusive 
imaging equipment to assess the risk of inbound containers. 
Under SFI, DHS is providing non-intrusive imaging systems to 
host governments while DOE is deploying radiation portal 
monitors, optical character recognition systems, and is 
developing and installing the communications systems necessary 
to integrate data from varying systems together to provide a 
more comprehensive set of information about U.S.-bound 
containers. Data on all scanned containers is provided to the 
host government. Data on U.S.-bound containers is segregated 
and provided to U.S. Customs officials on the ground that also 
send the information back to the National Targeting Center in 
Northern Virginia for incorporation into existing risk 
assessment systems. This effort is currently being implemented 
at seven foreign ports located in Pakistan, Honduras, the 
United Kingdom, Oman, Singapore, South Korea, and Hong Kong.
    Unfortunately, we have clear evidence that the detection 
systems are necessary. In 2003, Georgian border guards, using 
U.S.-provided portal monitoring equipment at the Sadakhlo 
border crossing with Armenia, detected and seized approximately 
173 grams of highly enriched uranium carried by an Armenian 
national. Also, in late 2005, a Megaports RPM picked up a small 
neutron signal from a scrap metal container leaving Sri Lanka 
bound for India. The source of the signal turned out to be an 
extremely small neutron source, which was found by the Indian 
authorities.
    I hope the above information will be useful to the 
Subcommittee as I move forward to provide the technical 
information that you have requested concerning the nuclear 
detection equipment installed by the SLD program

                    SLD Integrated Detection System

    To understand how the SLD system works, it is important to 
understand the interface between the fixed radiation portal 
monitors, the alarm station, and secondary inspections with 
hand-held detectors. The centerpiece of every installation 
completed under the SLD Core and Megaports Programs is the 
radiation portal monitor or RPM. We deploy RPMs that use 
plastic scintillators made of polyvinyl toluene (PVT) to detect 
gamma signatures and Helium 3 tubes to detect neutrons. The 
primary mission of the SLD Program is to detect special nuclear 
material (SNM), even small quantities of SNM, in particular 
plutonium and highly-enriched uranium--materials that can be 
used to make an improvised nuclear device or that may have 
already been incorporated into a device. The equipment that we 
deploy can also detect other radioactive materials suitable for 
use in radiological dispersal devices, often referred to as 
``dirty bombs''.
    I would like to emphasize that the PVT-based nuclear 
detection technology deployed by the SLD program is proven 
technology, capable of operating effectively in varied, and in 
many instances harsh environmental conditions. This technology 
was developed to ensure nuclear material security at DOE 
weapons sites and the specific monitors that we deploy have 
been tested and evaluated by our National Laboratory technical 
experts for over three decades. Indeed, NNSA installs this same 
type of monitor at the foreign weapons laboratories and nuclear 
facilities to prevent insiders from smuggling SNM out of these 
facilities. Our extensive experience with these monitors 
ensures that we can deploy them effectively and ensure their 
long-term sustainability.
    The RPM detects the presence of radiation and feeds alarm 
information to operators, typically customs agents or border 
guards, located in a local or central alarm station. The 
communications system graphs the gamma or neutron signal and 
helps the operators identify what type of alarm has occurred. 
At this point, the vehicle or pedestrian is retained and 
handheld equipment is used as part of a secondary inspection to 
identify the specific radioisotopes that caused the alarm. The 
handheld identification equipment that we currently deploy 
utilizes sodium-iodide or germanium technology and is the 
standard commercially available technology. Determination of 
the specific isotopes involved and their specific location is 
important because a number of common materials such as ceramic 
tile and kitty litter, in large quantities, may signal an alarm 
due to their relatively high concentration of radioisotopes. We 
call these ``NORM'' alarms, for ``naturally occurring 
radioactive material' alarms.
    Experience has shown that effective use of the hand-held 
equipment is highly dependent on the skill and training of the 
onsite official as they try to locate the source of the alarm. 
Expediting proper adjudication of alarms through these 
secondary inspections is particularly important in high-volume 
locations like major seaports. It is DOE's judgment that use of 
Advanced Spectroscopic Portal (ASP) monitors will improve the 
rate and accuracy of alarm resolution in these high-volume 
settings.
    ASP Testing
    As you know, the Domestic Nuclear Detection Office at the 
Department of Homeland Security is leading the research and 
development (R&D) effort on the ASP monitors. DOE has been 
involved in some of the testing activities associated with the 
ASP program. In order to determine the effectiveness of the 
ASPs, we are working jointly with DNDO to ensure that the 
increased ability of these monitors to differentiate threats 
does not compromise threat detection. In support of this 
effort, I have asked Los Alamos National Laboratory (LANL) to 
work with DNDO and lead a multi-lab effort to collect data on 
the spectra of well-characterized, unshielded special nuclear 
material (i.e., threat objects) resident at LANL under 
carefully-controlled conditions for all of the ASPs. These data 
will provide supplemental information to help validate 
injection studies where actual threat signatures will be 
injected into stream of commerce data collected at operational 
sea ports during the ASP test campaign. This data gathering 
effort is planned to occur over the next few months. When it is 
completed, this information will be combined with stream of 
commerce data already collected by DHS to carry out injection 
studies, an effective and flexible tool to help determine the 
extent to which the presence of NORM material in cargo may mask 
the identification of SNM and thus prevent containers of 
concern from being sent to secondary inspection.
    Finally, DOE will conduct additional performance evaluation 
of the ASP at LANL in fiscal year 2008 to determine how best to 
take advantage of the ASP's spectral resolution in order to 
maximize the performance of the ASPs as secondary inspection 
tools in SLD deployments. Because the allowable times for 
secondary inspections and installation parameters vary from one 
site to another, the ASP configuration parameters must be 
optimized for the variety of operational sites. SLD will 
perform tests to optimize the installation parameters and 
ConOps for the range of deployments required.

                              Use of ASPs

    In the near-term, DOE is purchasing a limited number of 
ASPs via contracts awarded by DNDO. Our plan is to deploy ASPs 
at some of our Megaports locations for use in secondary 
inspections. Under the planned SLD approach, once a PVT monitor 
alarms, the container will be sent to the ASP for secondary 
inspection. The ASP, with a much larger detector surface area, 
larger libraries, and better algorithms than the handheld 
detectors, should provide enhanced capability to effectively 
identify specific isotopes to aid Customs officials in 
determining whether a container presents an increased nuclear 
risk. Additionally, since the ASP monitors will be permanently 
installed and operated with less direct Customs officer 
involvement (i.e., there will be no need to move the hand-held 
device across the container) the ASP should provide greater 
consistency in secondary inspection. We anticipate that 
secondary inspections will be conducted more quickly, thus 
reducing the potential impact on port operations. If the ASPs 
are demonstrated to be reliable under a variety of field 
conditions, we would hope to deploy them to the remaining 
Megaports installations for secondary inspections.
    In the future, based on the results of additional analysis 
or testing and once the pool of operational experience has been 
more fully developed, DOE/NNSA may consider deployment of the 
ASP in some limited primary locations where extremely high 
amounts of NORM in the stream of commerce may make this 
approach necessary and cost effective. Our experience to date 
has not identified this as a major area of concern. Therefore, 
our plan is to continue to deploy PVT for primary detection and 
use ASPs in secondary in large, high-volume seaports.
    In closing, I would like to point out that DOE and DHS are 
working closely together to improve our nuclear and 
radiological detection capabilities. We share the common 
objective of preventing terrorists and states of concern from 
obtaining and smuggling nuclear materials that can be used in 
acts of terrorism against our country and our allies. I want to 
thank the Administration and Congress for their continued 
support of our program.
    Thank you. I would be happy to answer any questions you may 
have.
                              ----------                              

    Mr. Stupak. Thank you, Mr. Huizenga.
    Mr. Schneider, opening statement, please.

 STATEMENT OF PAUL A. SCHNEIDER, UNDER SECRETARY, MANAGEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Schneider. Thank you.
    Thank you, Chairman Stupak, Ranking Member Whitfield and 
members of the committee.
    I have been the Under Secretary for Management for a little 
over 8 months. One of my responsibilities is serving as the 
acquisition executive of the Department. And as such, I serve 
as the principal advisor to the Secretary on acquisition 
matters. I also serve as the vice chairman of the Department's 
Investment Review Board. This board is what the Department uses 
to approve major investment decisions.
    Based on my experience in acquisition over the years, I 
indicated during my Senate confirmation hearing that I would 
bring some of the best practices in acquisition that I had 
learned over the years to the Department of Homeland Security.
    In late July 2007, after reviewing the status of the ASP 
program and recognizing the importance of this program to the 
Nation, I concluded that this program would benefit from an 
independent review of the testing efforts. And by 
``independent,'' I meant, in my own mind, independent from the 
program office--independent from the program office.
    I made the recommendation to the Secretary to conduct an 
independent review of the testing process and the results. He 
agreed with this recommendation and directed me to assemble an 
appropriate team of technical and programmatic experts to 
conduct a review.
    Initially, I identified the Associate Director of the 
Threat Reduction Agency, DTRA, to head the team. My intent was 
to leverage DTRA resources by requesting assistance from the 
DTRA leader to assemble an appropriate team of experts to 
perform this task. However, this review was not intended to be 
a DTRA study. In early August, he withdrew from this effort.
    I then asked Mr. John Higbee, Dean of the Defense 
Acquisition University School of Program Management, to lead 
the effort. Mr. Higbee's role in this effort was a few weeks of 
planning, documentation collection, getting the team assembled 
and starting the effort. Last week I asked him to withdraw, 
when it became evident to me that he was a serious contender 
for a position in DHS. And while there was no conflict of 
interest in terms of technologies, companies or financial 
interest, because of the significant and, I might add, 
surprising amount of external scrutiny this review has been 
subjected to, I decided to be overly cautious and remove Mr. 
Higbee now.
    We have identified the members of the team and have 
provided your staff their names. Last week Mr. George Thompson, 
Deputy Director of Programs for the Homeland Security 
Institute, was selected to lead this effort. The Institute is 
the Department's federally funded research and development 
center. Last week I offered to make Mr. Thompson available to 
meet with your staff to learn of any concerns they may have 
with the ASP testing efforts to date.
    In August 2007, based on discussions with the DNDO and a 
recommendation by Customs and Border Protection, a decision was 
made to extend the field validation portion of the schedule by 
2 months to obtain more test data. As a consequence of that 
decision, the original requirement that this review be 
completed by September 17 will be adjusted.
    In my opinion, this review will provide valuable assistance 
to the Secretary and to me, as the Department's acquisition 
executive and vice chair of the DHS Investment Review Board, as 
DHS considers the best way forward.
    This is not an unusual exercise within the U.S. Government. 
The Department of Defense and others typically make use of such 
review efforts to facilitate decision-making on major programs. 
This independent review is not intended to be a substitute for 
GAO's review, nor is it a redundant effort. GAO is an agent of 
the Congress that appropriately provides information to 
Congress in support of its oversight function. GAO's efforts do 
not preclude DHS from conducting its own independent review to 
support DHS's decision-making process. I and the Secretary 
value getting inputs from several sources on major decisions.
    The ASP is of national importance in our effort to harden 
our defense against nuclear smuggling. This acquisition is a 
vital priority for the Department.
    Thank you for your leadership and your continued support of 
the Department of Homeland Security and its programs, such as 
ASP. I would be happy to answer any questions you have.
    [The prepared statement of Mr. Schneider follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you.
    That concludes our opening statements by our witnesses.
    In order to proceed in a more orderly and efficient manner, 
I would propose, instead of 5 minutes for questioning, Mr. 
Whitfield, we have 10 minutes for use during questioning. OK 
with you?
    If there is no objection, I propose we do this.
    Mr. Whitfield, anything further on that 10-minute rule?
    Mr. Whitfield. No, that is fine.
    Mr. Stupak. All right. I will begin questioning.
    Mr. Aloise, Mr. Rhodes, if I may, I said in my opening 
statement there has been criticism of the GAO that you did not 
have the qualifications to assess the radiation portal 
monitors.
    How long has GAO, Mr. Aloise, been working on this 
technology?
    And could you briefly, both of you, give me a little bit of 
your background in this area under the Government 
Accountability Office?
    And, Mr. Aloise, if you would like to start?
    Mr. Aloise. Mr. Chairman, in the last 5 years we have 
issued over 20 products directly related to radiation detection 
equipment.
    We have visited a lot of those countries that Mr. Huizenga 
mentioned, where the Second Line of Defense has placed this 
equipment. We have also visited a lot of the areas in the 
United States and the ports of entry where the CBP has placed 
the equipment to observe its operation, observe the procedures, 
how to deal with alarms.
    Many of our staff have gone through training on this at 
PNNL, the RADCAT training it is called, which goes in depth 
about how the equipment works and how to respond to certain 
things.
    And beyond that, we have talked to the manufacturers of 
this equipment, the vendors of this equipment, the repairmen 
who work on this equipment, the designers of the equipment.
    We know this equipment pretty well. We have been all over 
the world talking to people about it, as well as all over the 
United States and the national laboratories.
    And I will let Dr. Rhodes talk some more.
    Mr. Stupak. Doctor?
    Mr. Rhodes. I would just make one side comment, that, in my 
time at the GAO, I have been a key operator in and designer of 
the covert sting operations against our borders, where we have 
brought radioactive materials across, both undetected and 
detected. So I have designed those tests, which are actually 
testing the equipment as though the opponent would be testing 
it.
    Mr. Stupak. Educational background, Dr. Rhodes?
    Mr. Rhodes. Background is both computer and nuclear 
engineering. I worked at the Lawrence Livermore National 
Laboratory in both intelligence and weapons design prior to 
coming to GAO. Prior to that, I worked at Northrop Aircraft 
Corporation in the extremely low observables area in their 
Advanced Systems Division.
    Mr. Stupak. Thank you.
    Mr. Oxford, if I may, right in front of you, you have the 
exhibit book. And I would ask you to turn to exhibit No. 14, if 
you would in there, please.
    You said in your testimony one of the most vigorous 
testings ever done by the Government--as it should be, because 
we are talking about our security, our borders and nuclear and 
radiation detection. In exhibit 14, this Venn diagram prepared 
by your office, Domestic Nuclear Detection Office, shows that 
nine of the 16 radiation sources and masking materials used in 
the dry-run pretesting activities were also used in the full-
scale tests intended for certification.
    Is that correct?
    Mr. Oxford. It is.
    Mr. Stupak. OK. Do you agree, then, with GAO's testimony 
that, by providing the vendors with the opportunity to adjust 
their software and algorithms during the pretesting phase, that 
the Domestic Nuclear Detection Office--and I use their words 
now--``used biased test methods and were not an objective 
assessment of the ASP's performance capabilities.'' Would you 
agree with that?
    Mr. Oxford. We disagree.
    Mr. Stupak. Well, let me ask Dr. Rhodes, then, or Mr. 
Aloise, why would that? I mean, like, here is a test. If I give 
you nine out of 16 answers, I should be able to get the test 
right, right? At least a passing grade.
    Mr. Rhodes. I should get a passing grade.
    Let me make one statement here.
    Mr. Stupak. Sure.
    Mr. Rhodes. Without going into the details of the test, 
because they are classified, if you think about the material in 
question as a candle, and the material I am using to hide it is 
another candle, so I set one candle in front of the other, and 
I know the luminescence of the back candle and I know the 
luminescence of the front candle, and now I am able to subtract 
the front candle away, and so I know what the value is of the 
back candle.
    Now, let us do another test. Let us put a 100-watt light 
bulb in front of that candle. I know the value of the 100-watt 
light bulb. I now subtract the 100-watt light bulb, and you 
only see the candle. Let us put a 1,000-watt light bulb; let us 
put a search light in front of it.
    These are all fine calibration tests. These are tests to 
let me know that the equipment can indeed be calibrated. They 
are observations of the calibration of the system. But they are 
not representative, in a comparative state, of, can I see it if 
I don't know it? And that is our point about the limitations.
    Mr. Stupak. So you don't mind that they gave nine of the 16 
answers, if you will, sources, if you will, if you are in the 
developmental stage. But that shouldn't happen during the 
certification stage of the reliability of equipment.
    Mr. Rhodes. That is correct. Our view, at the GAO, is not 
that--you can test to death. I mean, Dr. Gowadia and I have 
talked about this and we have actually laughed about how long 
people can test things. You can turn it over to testers and you 
will never see an answer because they will never be done. And 
you can't have that.
    But if you are going to do a real comparator test and you 
are going to have comparative operands here, then you have to 
make certain that you are getting an answer that is not biased. 
And you are allowed to make certain that systems are working as 
well as they can----
    Mr. Stupak. So you want some more blind testing then, in 
other words.
    Mr. Rhodes. Blind testing.
    Mr. Stupak. And we do it for FDA, we do it for food safety, 
we do it everywhere else, why shouldn't we do it for 
radiologically?
    Mr. Rhodes. Absolutely. And it should ultimately, if your 
FDA analogy is very good, it should be a double blind test so 
that the tester doesn't know as well as the person being 
tested.
    Mr. Stupak. Mr. Secretary, if I may ask you this question. 
GAO recently gave three, what I figure key recommendations. You 
indicated your interest in the best practices independent 
review. So let me ask you this: These three recommendations 
that the Government Accountability Office made to you said DHS 
delays secretarial certification in full scale production 
decisions of the ASPs until all relevant tests and studies have 
been completed and limitation to those tests and studies have 
been identified and addressed.
    Furthermore results of these tests and studies should be 
validated and made fully transparent to DOE, CDP and other 
relevant parties. Second, once the test and studies have been 
completed, evaluated and validated, DHS should determine in 
cooperation with the Custom Border Patrol, CDP, DOE and other 
stakeholders, including independent reviewers if additional 
testing is needed. Third, if additional testing is needed, the 
Secretary should appoint an independent group within DHS, not 
align with the ASP acquisition progress, to conduct objective, 
comprehensive and transparent testing that realistically 
demonstrates the capabilities and limitations of the ASP 
system. This independent group would be separate from the 
recently appointed independent review panel. These three 
recommendations, do you agree with this, these three 
recommendations?
    Mr. Schneider. No, sir.
    Mr. Stupak. You don't agree with it?
    Mr. Schneider. Not completely.
    Mr. Stupak. What do you disagree with?
    Mr. Schneider. I don't have those recommendations in front 
of me, I am sorry.
    Mr. Stupak. I think Mr. Huizenga just handed them to you. 
If you want the best practices, independent review?
    Mr. Schneider. Well, that is why I think we have to take 
them one at a time. I think one of the reasons, in fact, the 
principal reason why I decided to recommend to the Secretary to 
have an independent review team was I realized there was a lot 
of discussion regarding the testing of the ASP. I read some GAO 
documentation, two documents, I believe, dated early March. I 
had looked at that. I recognized some of the concerns that had 
been put forth at the time by GAO. I have also recently been 
briefed on the ASP program as part of the process that we use 
as part of the investment review board process. It was at that 
point in time that I really got an appreciation for the 
magnitude of this testing effort. It helped me put in 
perspective, if you will, some of the GAO comments. My own 
background----
    Mr. Stupak. So with those comments then in perspective, you 
disagree with these recommendations?
    Mr. Schneider. Basically that led me to conclude I wanted 
it for the benefit of--my role in the investment review board 
process and the fact I am the Secretary's principal advisor on 
acquisition, I felt that he ought to have an independent group 
of people, technical people, looking at the testing process and 
results prior to considering a recommendation for 
certification.
    Mr. Stupak. Well, this independent review, with all due 
respect, the independent review you have still lies within the 
Department of Homeland Security. The only truly independent 
review, whether you are at DOD or DHS, is really the Government 
Accountability Office. They are the truly independent agency. 
So why wouldn't you take the truly independent agency's three 
key recommendations on these ASPs?
    Mr. Schneider. First, I respectfully disagree with you 
about that they are the only truly independent review.
    Mr. Stupak. Give me another one that is a truly independent 
review that doesn't reside within the Department of Homeland 
Security.
    Mr. Schneider. Well, Mr. Chairman, let's talk about 
testing.
    Mr. Stupak. No, let's talk about independence. You said 
there are others in GAO. Enlighten the committee please. What 
other agency would you have us look at for truly independent in 
order to do this review of your testing? Other than GAO, who 
else would Congress look to?
    Mr. Schneider. First of all, the military departments in 
DOD in terms of testing, they do independent testing and 
recommendations to the Chief of Naval Operations.
    Mr. Stupak. And who does the independent testing that is 
outside the Department of DOD?
    Mr. Schneider. It is within the Department. There is a 
special group that is set up. There is a director of test and 
evaluation. Each of the services have an independent test and 
evaluation agent. They report individually and separately to 
whoever a major investment decision----
    Mr. Stupak. So why don't you set up an independent one if 
you still wanted the Department of Homeland Security to truly 
do this independent review.
    Mr. Schneider. It is done within the Department.
    Mr. Stupak. But even your latest appointment, doesn't 60 
percent of their funding come from Department of Homeland 
Security? Is that truly independent.
    Mr. Schneider. It truly is independent given the fact what 
the role that Federal FFRDCs play. This is exactly what FFRDCs 
do. And I don't care whether they are the Army, the Navy or the 
Air Force, or for that matter, what the FAA has with Casby who 
was their FFRDC. This is exactly the type of work that they do, 
sir.
    Mr. Stupak. When you have three different directors 
appointed in 6 weeks, it sort of gets us wondering whether it 
is truly independent and whether you have confidence that truly 
is the independent review, which had three in 6 weeks right.
    Mr. Schneider. Three in 6 weeks yes. I explained why. And 
frankly on the last one, in the case of Mr. Higby, I was being 
overly cautious. In fact, you could say I was gun shy. Under 
most circumstances, given the fact of the role that DOE plays 
and the partnership arrangement that we have between the 
Department of Defense and Department of Homeland Security for 
cooperative efforts like this, DOE is engaged in many other 
deep dive program reviews right now for us.
    Again, this is one of the practices that we are trying to 
institute where we have a group of people separate from the 
program office. And I can't overstate that enough, separate 
from the program office, that do not have line execution 
responsibility for the execution of the program to go do these 
reviews.
    Mr. Stupak. My time is up right now. Mr. Whitfield, for 
questions, please, sir.
    Mr. Whitfield. Thank you, Mr. Chairman. Mr. Aloise and Dr. 
Rhodes, in your testimony you express significant concerns 
about the DNDO's testing, that being biased and so forth. I was 
just curious, why do you all not recommend that the Department 
simply start over and redo all the field tests?
    Mr. Aloise. Sir, because there are some test results we 
haven't seen yet. They had they say had done some blind tests 
and they want to use some other test data. And that data they 
say is still being analyzed. So we thought it was prudent to 
allow them to finish that analysis and share that testing that 
has already been conducted with DOE and CBP and others.
    Mr. Whitfield. Now, Dr. Gowadia, you and Dr. Rhodes are, I 
guess, the technical experts in all of this. How would you 
describe the difference of opinions on these tests, the testing 
that has been done. Is this a serious disagreement between you 
and the GAO? They say it is biased and you are saying it is not 
biased. Would you explain to the committee just how significant 
the disagreement is between GAO and DNDO on the testing.
    Ms. Gowadia. Yes, certainly. The biggest difference I 
believe is right now we are in the process of addressing one 
phase only of the test data. We have much more data that we are 
going through right now that will also be used to inform the 
Secretary for his decision. While 9 of 16 cases have been used 
in the phase 1 effort, I would point out that only 26 of 90 
configurations were actually shown in pretesting if you 
consider the totality of the test. So yes, there is a 
significant difference. It depends on how you slice the data.
    Mr. Whitfield. Dr. Rhodes.
    Mr. Rhodes. Well, yes, there is limitation on the data. I 
cannot speak to something I do not have. But our going in 
position at the beginning when we saw phase 1, phase 1 was for 
certification. That was why we were concerned. Because we saw 
it, looked at it, I understood it, we were briefed on it, we 
received that data. However, because of the decision that was 
supposed to be made about that, and understand that our 
testimony is based on that, that is the limitation that we do 
have.
    Mr. Stupak. If I may jump in, Dr. Gowadia, any reason why 
you would not give GAO all the information? Dr. Rhodes said 
they have not received all the information. Why wouldn't you 
give them all the information?
    Ms. Gowadia. We have given them all the information as it 
has been ready and prepared and finalized. Draft documents are 
not handed to the GAO. We are presently going through every 
last spectrum of a very large----
    Mr. Stupak. Well, when are you going to be done with your 
review? According to everything we hear, you are going to make 
a decision in a few weeks. If all the data is not finalized, 
when are you going to get this done and get it to GAO and give 
them time to review it?
    Ms. Gowadia. I believe, sir, the decision is now in 
November, so we are exercising extra prudence to make sure that 
we analyze the data correctly.
    Mr. Stupak. OK. November. It is late September. When are 
you going to give GAO the information they need before November 
to make a decision to inform Congress.
    Ms. Gowadia. We will give them the data and the information 
once it is finalized, sir.
    Mr. Stupak. When will that be?
    Ms. Gowadia. It will likely be before November, before the 
decision for certification.
    Mr. Stupak. Is there certain information GAO needs, Dr. 
Rhodes or Mr. Aloise, in order to make a decision here? I think 
you should have all the information.
    Mr. Aloise. Well, of course. And Mr. Chairman with all due 
respect, this has not been the most transparent review we have 
ever worked on. We have had to basically fight and scrape for 
every piece of information we have gotten. Now, that has 
changed recently and we are thankful for that. But until we 
know what the results of these tests are, we, of course, are 
not going to be prepared to say it makes sense to go to 
secondary deployment without knowing what the results of the 
tests are, without having everybody's buy in that is enough, 
that that shows that the equipment is going to do what they say 
it is going to do.
    Mr. Stupak. I thank the gentleman.
    Mr. Whitfield. Now, Mr. Oxford you all have the 
responsibility under the legislation, the appropriation bill 
certifying this ASP technology, is that correct?
    Mr. Oxford. That is correct.
    Mr. Whitfield. And you don't need the approval of GAO to 
certify, do you?
    Mr. Oxford. We do not.
    Mr. Whitfield. You can do that on your own.
    Mr. Oxford. If I could clarify the position, and we have 
confirmed this with the appropriations committees that crafted 
the language that is in our 2007 bill. This is merely an 
accountability statement by the Secretary that this system 
represents an increase in operational performance. It is not 
connected to a deployment decision, nor a production decision. 
So it is up to those of us that inform the Secretary, ourselves 
and CBP, as well as now Under Secretary Schneider, to go in 
with whatever information we think the Secretary should have to 
make these recommendations.
    Mr. Whitfield. Well, obviously everyone on the panel, and 
all of us certainly want to be as certain as we can be that 
this technology works because of the drastic consequences if it 
does not work the way it is supposed to. But Mr. Huizenga, you 
are with the Department of Energy or National Nuclear Security 
Administration, you are not bound by any certification and you 
have already purchased some ASP technology; is that correct?
    Mr. Huizenga. Yes, it is.
    Mr. Whitfield. And you all intend to deploy that in 
overseas ports; is that correct?
    Mr. Huizenga. Yes. Our intention is to put the ASPs in 
overseas ports for secondary inspections to gain some 
additional information on the operational effectiveness and to 
try to optimize their use.
    Mr. Whitfield. Now, you have tremendous responsibility on 
the security question in these overseas ports. What was your 
impression of the GAO's study on this issue?
    Mr. Huizenga. I think that the GAO has raised some 
legitimate issues. And Mr. Oxford and I have been discussing 
them for some time now. But within the administration, I think 
we are making good steady progress. We are working through the 
final issues associated with testing the ASPs.
    Mr. Whitfield. And there are ASP monitors deployed 
throughout the U.S. ports now just being tested; is that 
correct, Mr. Oxford?
    Mr. Oxford. Yes. As part of our overall test program we 
deployed these to four ports of entry, 5 if you figure out some 
of the geographical separations and physical locations. They 
are under the control now of CBP officers. They are operating 
the systems. They are evaluating the performance in the field 
to make sure they are a very stable system. That is why I 
mentioned before that this is a joint recommendation to the 
Secretary, not just DNDO. This is joint with CBP because they 
are the operator and they have to assess the operational 
utility.
    Mr. Whitfield. And can you share with us how they are 
performing at this point?
    Mr. Oxford. I will tell you that the feedback from the port 
directors at ports where CBP is operating these systems is that 
the performance is starting to whet their appetite for a larger 
deployment based on the immediate feedback. The Deputy 
Commissioner of CBP and I have talked. He has commissioned what 
he calls a blue ribbon panel within CBP to look at the next 
steps in going to his recommendation for certification and 
future deployment strategies, so we will be ready once the 
Secretary makes a decision.
    Mr. Whitfield. And what would be your best guess as to when 
you all may be certifying.
    Mr. Oxford. Again, some of the comments earlier on are a 
little bit misleading. We have not reacted to the GAO's input. 
We have been making prudent management decisions as we have 
learned things, both through our test program, and through our 
field validation of systems. We have had a couple requests by 
CBP to change some of the features of the fielded systems. We 
have changed some of the software. When we do that we 
essentially start the field validation over so that CBP 
officers have at least 2 months of good stable operations in 
the field. The most recent slip was based on a request from CBP 
to have 2 months of field operations of these systems at the 
four ports of entry. That moves us into November based on the 
operator's input.
    Mr. Whitfield. And have you all decided on how many ASP 
systems you may be prepared to deploy next year?
    Mr. Oxford. We have an acquisition plan. It is predicated 
on action once we go through certification, which, as I 
mentioned before, is decoupled from the decision for production 
or deployment. That is a separate pathway. Right now we have an 
acquisition strategy that would start to buy 131 systems, as 
included in our 2007 request, that is pending the certification 
step. And again, the actual deployment strategy will be jointly 
developed with ourselves and CBP.
    Mr. Whitfield. Mr. Chairman, I think we only have a couple 
minutes to vote on the floor.
    Mr. Stupak. Right. We only have a couple minutes to vote on 
the floor. We will be in recess for 20, 25 minutes. So I would 
ask the witnesses to stay. We have three votes, and they 
promise us a couple of hours uninterrupted. Thank you.
    [Recess.]
    Mr. Stupak. OK. The hearing will come to order. Mr. Green, 
for questions.
    Mr. Green. Thank you Mr. Chairman. Unlike the first line of 
questions, and I appreciate our witnesses being here, I think 
you heard briefly early on my concern is I have a large 
container port, Port of Houston, and we are actually expanding 
it. We just opened another in Bay Port. And they already leased 
land to continue, because the growth of containers in our 
country are just going to be even more if our economy continues 
to grow. And having been on the docks, a lot of times our 
customers agents, particularly at Barbers Cut, and seeing what 
we are doing now, and I would hope that we would be able to 
have the technology to do even better, but of course, we need 
to make sure the cargo moves, but we also need to make sure 
there is nothing in there that is going to harm us.
    One of the biggest questions when I spoke to the port, Mr. 
Schneider, was inquiring about its staffing levels of the new 
technology. DNDO and DHS state that the ASP monitors are less 
labor intensive because there will be fewer secondary hands. 
How will staffing levels be affected, both when this technology 
is new and being used in addition to the PVT portals for the 
secondary screening purposes and if it becomes the primary 
screening device?
    Mr. Oxford. If I could take that, Mr. Green. Let me give 
you some information. First of all, from our New York Container 
Terminal testing that we conducted, we found that there is over 
a factor of 20 reduction in referrals from primary to secondary 
inspection based on being able to dismiss ``nuisance alarms.'' 
There are some cases that we are working with DOE that we want 
to make sure we explore a little bit more fully. But if that 
factor holds in a port like LA/Long Beach where they are 
getting 500 nuclear alarms per day, it would go down to about 
20 to 25 that they would have to pay serious attention to in 
secondary.
    Mr. Green. So while those only test false positives, I know 
in our business, we also look for false negatives. Are the 
tests being done on both sides?
    Mr. Oxford. We are doing tests on both sides. There is a 
special case that we have identified with DOE. And I think that 
is part of the confusion about why we need injection studies 
and follow-on testing. There are some cases that we worry about 
where you could have very high masking levels where there is a 
possibility that you would end up with a false negative.
    We need to explore those cases. But I will also tell you 
that it is not always uniquely a technology issue. For example, 
we have seen that case 24 times in the last year and a half in 
this country. We can actually set algorithims on these 
detectors to trigger that to secondary inspection, so that CBP 
can then take operational action. It is a combination of the 
operators as well as the systems that have to work together.
    Mr. Green. And are ASP monitors currently being used on a 
trial basis in any of the ports of entry or are they just being 
tested for example in New York or Long Beach.
    Mr. Oxford. We have four ports of entry right now. LA/Long 
Beach, the Port of Laredo in Texas, Detroit in Michigan and 
Port Newark. We have them in operational sites with CBP right 
now.
    Mr. Green. Let me follow up. Since you answered that 
question I have one. After the ASP certification has been to 
Congress, how many ASP units does your office plan to purchase; 
do you plan to use it for primary or secondary screening 
initially?
    Mr. Oxford. Initially, we will go with a production and 
deployment recommendation to the Secretary after certification. 
They are not coupled in that regard. Right now we have a total 
purchase plan based on the current deployment strategy with CBP 
for both primary and secondary sites of about 1,200 ASP 
systems. That is our current acquisition plan. However, the 
agreement with CBP, is that we will initially go into secondary 
deployment. They are developing the priorities for where they 
will go and how they will be deployed over time. We will make a 
decision in the next 6 to 12 months as to what the criteria are 
and how to progress into primary deployment after that time.
    Mr. Green. And you said you are doing them in the ports, 
the Port of Laredo, which is the biggest port, I guess, in the 
world. Is it your intention to deploy them in other ports along 
with both the Canadian and the Texas and--well, the southern 
border.
    Mr. Oxford. Absolutely. Our deployment strategym developed 
with CBP since they are the operational customer, includes both 
land border crossings and sea ports, as well as introducing 
capabilities into airports of entry as well, which is a new 
part of our phased deployment. I would like the committee to 
understand that our deployment strategy will continue to rely 
on a combination of the current generation systems, as well as 
these new systems. We have a strategy worked out with CBP on 
how that can be both operationally effective and cost 
effective.
    Mr. Green. Well, again, all of us are representative of 
districts, but our concern is our Nation. And I know New York, 
Long Beach, and just last year, I think the Port of Houston was 
given level 1 concern because of the resources and assets we 
have there with the petrochemical industry particularly. But we 
are also growing a huge container capability, along with 
Wilmington and lots of other places in our country. Mr. 
Chairman, thank you for holding the hearing today.
    Mr. Stupak. I thank the gentleman. Let us go for a second 
round of questions for a bit here. And as other Members show 
up, they will be given an opportunity to ask questions. Mr. 
Huizenga, in response to Mr. Whitfield's questions, did you say 
that the ASPs are deployed overseas?
    Mr. Huizenga. No. Actually, there is one in South Hampton, 
United Kingdom, and that is the only one that we have overseas 
at this point. The ones that we are talking about directly here 
are part of the DNDO testing process. We have been using a 
similar technology, this sodium iodide technology in the 
Bahamas for over a year now. And again, in kind of a pilot mode 
where we run a detector over the containers and use the PVT to 
initially alarm.
    Mr. Stupak. The one that you have had over a year now in 
the Bahamas, has GAO looked at that to certify it?
    Mr. Huizenga. GAO is aware of that monitor as well.
    Mr. Stupak. Not aware of. Have they looked at the test 
results and analyzed it? That is what I am asking.
    Mr. Huizenga. I am not sure. They have reviewed us several 
times. And I know Mr. Aloise is aware of it. I don't know if he 
specifically looked into a certification issue.
    Mr. Stupak. Mr. Aloise, let me ask you this then. Is it 
GAO's view that ASPs are ready to be deployed overseas as a 
secondary screening at this time with all the full 
understanding of their detection limits? We keep hearing about 
additional operational testing in the field. What does that 
mean to you? Does it tell us that a machine can accurately 
detect various threat materials? What is the limitation on the 
operational testing in terms of your certification for testing 
limits.
    Mr. Aloise. Certainly the field testing is important, but 
it is not testing with special nuclear materials. That was done 
in the February to March test that we are criticizing here. Let 
us not forget, that is the key test out of all of this, is that 
test which used special nuclear materials. And that test did 
use 6 of the 7 same materials and 9 of the 14 or 16, depending 
how you count configurations.
    Mr. Stupak. That was phase 1 testing, is that right?
    Mr. Aloise. Phase 1 testing, correct.
    Mr. Stupak. Phase 2 is more or less writing your report, 
correct?
    Mr. Aloise. We understand it, yes.
    Mr. Stupak. OK. And phase 3, you have not received any of 
that data?
    Mr. Aloise. We have not seen that data. We did finally get 
a copy of the test plan. And in the test plan it said that was 
not going to be used for certification. And it was even 
questioning the statistical validity of some of that 
information for some purposes. So we have not yet seen those 
results.
    Mr. Stupak. Have you seen any blind testing results?
    Mr. Aloise. No, we have not seen the blind test results.
    Mr. Stupak. Mr. Oxford, one of the requirements were that 
you test the outer limits of these machines to determine what 
can ASP detect and what it can't detect, correct?
    Mr. Oxford. Yes, sir.
    Mr. Stupak. Have you done that?
    Mr. Oxford. We think we have. Let me explain, Mr. Chairman, 
that when we talk about ``requirements'', that is a very loose 
term. Right now there is one threat baseline that we have been 
asked to address. I can't go into it in this session.
    Mr. Stupak. Let me just ask it this way then. Would it be 
common sense that you test the outer limit to know what a 
machine can and cannot do?
    Mr. Oxford. We are doing that.
    Mr. Stupak. Have you shared those outer limit test results?
    Mr. Oxford. We have shared the raw data with the GAO. We 
have not finalized the test report. In all these cases, 
especially phase 1, we offered them the opportunity to actually 
review the test plan before we conducted it. They turned us 
down in that review and said they would wait until the test 
results. But in terms of phase 3----
    Mr. Stupak. The test results of these outer limits--I don't 
want to leave here yet----
    Mr. Oxford. We have not finalized the report.
    Mr. Stupak. And you haven't provided it to GAO.
    Mr. Oxford. Not yet. I haven't even seen it.
    Mr. Stupak. Have you not seen it?
    Mr. Oxford. I have not seen the final report. It is not 
prepared, so I have not actually coordinated or approved the 
document at this point.
    Mr. Stupak. But you would agree with me, common sense and 
for security of this Nation, we would test the outer limits of 
the ASPs.
    Mr. Oxford. Absolutely. We think we have taken a big step 
in doing that.
    Mr. Stupak. This outer limit testing, is this the injection 
studies?
    Mr. Oxford. Actually, it is phase 3 that starts that. 
Again, there is also a difference in my mind between secondary 
and primary deployment and what testing is necessary to make 
those decisions. As we identify other cases that may or may not 
have been tested that are in phase 1 and phase 3, we will 
identify other opportunities. They will be informed by the 
injection studies, which the technical summit that we held on 
June 27 suggested we need to do injection studies to identify 
where the current data is relevant.
    Mr. Stupak. So is the outer limit going to be determined by 
injection studies or realistic blind studies?
    Mr. Oxford. A combination. And the injection studies will 
inform what future testing is required.
    Mr. Stupak. What about blind studies?
    Mr. Oxford. The blind studies, if I could try to correct 
the impression, was really a red team operation. I know Mr. 
Aloise and Dr. Rhodes, who has already acknowledged that he has 
worked in some of the covert sting operations that GAO has 
conducted, understands that you do that to find out if there 
are any vulnerabilities or gaps in your processes and 
capabilities. That is why we ran that red teaming operation out 
in Nevada. We wanted to see whether our test methods were sound 
and whether there were gaps in our understanding of how you 
place sources and how you learn from that.
    Mr. Stupak. Let us go back to my original question. The 
outer limits of what this machine can detect and cannot detect, 
you rely upon, I understand, more than just the injection 
study, the computer simulations? Am I correct or wrong in that?
    Mr. Oxford. Injection studies will inform what testing 
needs to be done and will determine which tests to conduct if 
they are necessary. Again, that will be a joint decision with 
DOE and others as we look at these special cases.
    Mr. Stupak. Let me ask it one more time. The outer limits 
testing determine what the machine can and cannot detect. Will 
it be done by injection studies only or are you going to do 
blind testing on it?
    Mr. Oxford. It will be done with both injection studies and 
testing.
    Mr. Stupak. You said testing. That is not blind. Are you 
talking about blind testing or not? I am not trying to play 
semantics here. I am trying to get to the root problem here. I 
want this done outer limit testing in real world application, 
not a computer simulation.
    Mr. Oxford. It will not be a computer simulation.
    Mr. Stupak. So what is it going to be then? What other 
testing is there, other than computer simulation that you can 
do to test the outer limits?
    Mr. Oxford. We actually have proposals for two test series 
during the course of fiscal year 2008.
    Mr. Stupak. And what are those test series?
    Mr. Oxford. We have not written the actual test plan 
because we are still working with the----
    Mr. Stupak. So you think you are going to do two testing, 
but you don't know what the testing is?
    Mr. Oxford. Not at this point.
    Mr. Stupak. Are we making this up as we go along?
    Mr. Oxford. No, we are not.
    Mr. Stupak. Or do we have a plan here?
    Mr. Oxford. We will have a plan. We will have a test plan.
    Mr. Stupak. These two new plans you plan on bringing up, 
are you going to run those by GAO to make sure that they are 
valid tests.
    Mr. Oxford. Perhaps.
    Mr. Stupak. Are you certifying these ASPs before you do 
these two tests that you don't know what they are yet.
    Mr. Oxford. Again, I cannot presuppose what the Secretary 
will or will not decide.
    Mr. Stupak. Well, you are making recommendations from what 
I understand is going to be November and you don't know what 
the two tests are going to be. It sounds like you certified 
before you even know what the two tests are.
    Mr. Oxford. Mr. Chairman, let me clarify. We held a 
technical summit with the DOE, the national laboratories, you 
had committee members or staff present, we had the GAO present. 
A conclusion out of that discussion, an all-day discussion with 
those representatives, was that these systems were ready to go 
to secondary, but there were some cases that were of concern 
before we made a primary deployment decision.
    The certification decision is not coupled with the 
deployment strategy. The fact is that we can go to 
certification without necessarily having done every possible 
test. We will continue to test over time to refine the 
algorithms in these systems, but the technical community is 
comfortable with the secondary deployment decision if the 
Secretary certifies it.
    Mr. Stupak. Then if the Secretary certifies it and if it 
doesn't meet the outer limits test, then how do you decertify 
it then as a primary?
    Mr. Oxford. Again, the deployment decision is separate from 
certification that it does represent an increase in 
performance.
    Mr. Stupak. But you and I are both in government. We know 
once you deploy something we don't pull it back. We want to 
make sure it is done properly before you even deploy it. So 
what assurances can you give the American people that there are 
going to be valid ASP machines before you even deploy them.
    Mr. Oxford. We will probably spend the next 6 to 12 months 
determining what test and evaluation needs to be done before we 
make a decision to deploy to primary inspection sites. Most of 
these special cases are coupled to the concerns of the ASP and 
a false negative in the primary role versus the secondary role.
    Mr. Stupak. Let me ask GAO, Mr. Aloise or Dr. Rhodes, again 
about this injection study. Isn't injection study just a fancy 
word for fixing a process that is flawed?
    Mr. Aloise. Well, the injection studies that occur had 
flaws in the original February-March test plan. That is what 
that technical summit was designed to do. I didn't understand 
that they were making a decision coming out of that submit to 
deploy in secondary. So that is another question we have we 
have been asking. They are not as good as real testing 
injection studies. They can provide useful information, but not 
as good as real testing. And after all, injection studies are 
designed, as I said, to correct flaws with the initial test in 
February-March, and to us those are the key tests.
    Ms. Rhodes. Let me just take a couple of minutes and talk 
about the injection studies and try to use an analogy from 
another part so that we don't get into the details of the 
studies themselves. We can no longer do underground nuclear 
testing so we have to do simulations.
    Mr. Stupak. Sure.
    Mr. Rhodes. And we have to go back to the old underground 
test data. Some of the testing that I did was at Livermore. 
That is data that we feed into assimilation to try and model 
some of the money, a large amount of money that the Government 
is putting into Livermore and Los Alamos and San Diaz to do 
these simulations.
    Mr. Stupak. Correct.
    Mr. Rhodes. The simulations are good, but they are 
simulations, they are models. You try your best to validate. 
The stockpile stewardship program in the Department of Energy 
through NNSA is a large effort to try and give surrogate tests 
to try and match the original detonations and neutron counts 
and things like that. So that is why we say that the injection 
studies may help. But they do have to be validated. The 
validation of an injection study is back to reality. The 
validation of injection study is not do other simulation.
    Mr. Stupak. OK. Mr. Oxford you are nodding your head in the 
affirmative. Do you agree that the validation studies or your 
simulation studies have to be validated?
    Mr. Oxford. I agree. That is why I say they will inform 
what testing needs to be done so we can get to that validation.
    Mr. Stupak. How are you going to validate it?
    Mr. Oxford. Through testing.
    Mr. Stupak. What testing are you going to do to validate 
it?
    Mr. Oxford. Again, the injection studies will tell us 
exactly what test runs, what sources, masking cases, et cetera, 
we need to evaluate against and then we will plan that test 
accordingly.
    Mr. Stupak. So you don't know what tests you are going to 
use to verify the simulation?
    Mr. Oxford. Not at this date. We have an idea of what we 
are going to be testing.
    Mr. Stupak. You are not going to validate this until after 
you do this testing on your injection studies right.
    Mr. Oxford. We will not validate?
    Mr. Stupak. Right. You won't certify, I am sorry, you won't 
certify?
    Mr. Oxford. Again, that decision is left to the Secretary. 
Again, it is not a deployment decision. It is a decision he 
will make.
    Mr. Stupak. You will be making a recommendation to the 
Secretary, won't you.
    Mr. Oxford. I will, the Under Secretary will----
    Mr. Stupak. Then will you promise this committee you won't 
make a recommendation until you figure out the two tests you 
are going to use to certify the injection studies.
    Mr. Oxford. I will not commit to what we are going to make 
a decision on in front of the Secretary at this point in time, 
because we think, in some cases, we have.
    Mr. Stupak. I didn't ask you for your recommendation. I 
asked you to make a commitment to this committee that you don't 
make a recommendation either way to the Secretary until after 
you have a validation of these injection studies by two more 
tests that you said you are going to do.
    Mr. Oxford. No, sir, I will not make that commitment today.
    Mr. Stupak. OK. That is interesting. Mr. Whitfield for 
questions. I am going to come back for a third round of 
questions. I am now getting warmed up.
    Mr. Whitfield. Thank you Mr. Chairman. Mr. Oxford, we know 
that the ASP system, while it would vastly improve the security 
situation, is quite a bit more expensive, and it is my 
understanding that right now the PVT system that you are using, 
that that costs about $70,000 per monitor and the other one, 
the ASP is around $400,000 and you have about 1,400 PVT systems 
deployed worldwide. And I was wondering is it more cost 
effective to deploy ASP systems at the major ports where you 
have most of the nuisance alarms and only in secondary 
screening instead of considering primary screening as well?
    Mr. Oxford. Again, that will be a joint decision with 
Customs and Border Protection based on, again, the 
effectiveness of the system as well as their operational work 
load. As I mentioned, at the Port of LA/Long Beach, which gets 
500 nuclear alarms per day, once we feel like we have 
confidence that you can deploy ASP in the primary, I think the 
CBP recommendation will be to do primary and secondary 
deployment of ASP at a very high volume port like that. In 
other cases, we will continue to rely on PVT in primary with 
ASP in secondary. But again, this is a balance with the 
operator that we have to judge.
    Mr. Whitfield. Now, at the Port of Los Angeles, it is my 
understanding there are about 150 Custom and Border Protection 
inspectors and there are a lot of nuisance alarms there 
particularly. And if you deploy this ASP system in Los Angeles 
with the reduction of the nuisance alarms, it would be 
possible, I am assuming, to reduce the number of Customs 
employees there as well.
    Mr. Oxford. I would expect that to be the case, but I 
wouldn't speak on behalf of CBP. They have a lot of missions 
they conduct at the port, so I doubt that there would just be 
less in demand. They would probably have other missions they 
could cover more comfortably. There wouldn't be a reduction in 
the requirement.
    Mr. Whitfield. OK. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you. I want to go back to Mr. Oxford if I 
may, because I am disturbed about the outer limits here that 
are not being tested. In your testimony, on page 2, you state, 
and I'll quote, ``There are known detection limitations to the 
current system.'' So you acknowledge there is limitations to 
the ASP, correct?
    Mr. Oxford. My comments were intended to convey that there 
were known limitations to the currently deployed systems, not 
the ASP.
    Mr. Stupak. OK. PVT.
    Mr. Oxford. Correct.
    Mr. Stupak. By this, then, do you mean that the existing 
systems, existing ones, PVT, can overlook radiological threats 
that could potentially be smuggled through our borders?
    Mr. Oxford. Without getting into the details----
    Mr. Stupak. Just answer yes or no would be sufficient.
    Mr. Oxford. I can tell you that we have found some cases 
that we would be concerned about, yes.
    Mr. Stupak. Then does the organization plan to use phase 3 
testing in support of a certification of the ASPs.
    Mr. Oxford. We will look at the relevant data from phase 3 
to help inform that recommendation, yes, sir.
    Mr. Stupak. Then right there the book binder in front of 
you please, turn to exhibit 10, page 2. This is the phase 3 
test plan.
    Mr. Oxford. Which reference again, sir?
    Mr. Stupak. Exhibit No. 10, page 2. First of all, exhibit 
10 is your phase 3, correct?
    Mr. Oxford. It is the phase 3 test plan, yes.
    Mr. Stupak. So go to page 2. Doesn't the section entitled 
``Test Purpose'' state that the phase 3 test plan is not 
intended for key decision point three decision, which is a 
decision to approve full scale? Isn't that what it says?
    Mr. Oxford. Yes, sir.
    Mr. Stupak. OK. Stay with that exhibit. Please turn to page 
19, the same thing. Doesn't this say in the section entitled 
``Sample Size Methodology'' that the tests run in phase 3 are 
not large enough to be statistically meaningful for assessing 
probability of detection.
    Mr. Oxford. It does.
    Mr. Stupak. Then if you turn to page 2 at the beginning it 
says, this is the signature page. There are no signatures on 
the version we are provided by your office. Did you sign this 
document?
    Mr. Oxford. I can't recall whether I actually signed this 
version or not. Again, sometimes when we go through version 
control we add on a new version. If you notice, this is marked 
version 3. So the original test plan, if we make modifications 
to the test plan----
    Mr. Stupak. Is there a modification after?
    Mr. Oxford. After version 1, yes.
    Mr. Stupak. After this one?
    Mr. Oxford. No, not after version 3.
    Mr. Stupak. So after March 30 this plan, exhibit No. 10, 
that is the plan you are following.
    Mr. Oxford. Right.
    Mr. Stupak. You don't know if you signed it.
    Mr. Oxford. I can't recall if I signed that version.
    Mr. Stupak. Is there a reason why you would not have signed 
the version?
    Mr. Oxford. I can't recall that.
    Mr. Stupak. I hate to assume, but I guess we would assume 
you signed off on this testing then, right?
    Mr. Oxford. We actually conducted this test.
    Mr. Stupak. So I assume then you must have signed off on 
this test if you have actually conducted it?
    Mr. Oxford. Our milestone test process requires that the 
test plan is approved before we go through what we call a test 
readiness review, which begins the test team authority to 
deploy and begin the testing.
    Mr. Stupak. So you must have signed it.
    Mr. Oxford. I don't know if I signed this one or not.
    Mr. Stupak. Well, can you explain how your office can 
justify using data which is not significantly--I am sorry. Can 
you justify using test data which is not of a statistically 
significant size to support your certification.
    Mr. Oxford. What we do is look at any available data, we 
find out if it is relevant to the Secretary's decision and we 
will look at whether that data shows any trends or any 
potential deficiencies in our capability. I made the decision 
on May 29.
    Mr. Stupak. But your document that you allegedly signed 
said it must be statistically significant. The methodology that 
you are collecting is not statistically significant. How would 
you use it for a certification.
    Mr. Oxford. We would be remiss if we learned something in 
that test that we did not provide to the Secretary. So while we 
first envision this test to look at some of the outer limits to 
look at some of the--the goal of this test was to look at some 
of the limits of ASP performance, to further develop the 
algorithms associated with the systems and to define concept of 
operations or help work with CBP. I made a decision that if 
there is existing data that is relevant to the Secretary's 
decision, it is prudent to make use of that data as opposed to 
ignoring it.
    Mr. Stupak. To look at the outer limits, as you just said. 
And then you said you can't use it because it is not 
statistically significant. So therefore you never looked at the 
outer limits, did you?
    Mr. Oxford. I don't think that is true. We can get into a 
statistics debate. If I am making a recommendation to the 
Secretary, I need to make use of existing data, whether we have 
done 1,000 runs or 60 runs or whether we think we can draw a 
good reference from that data.
    Mr. Stupak. In order to draw a valid reference from the 
data, the data has to be of a significant size so you can reach 
a conclusion. Otherwise if your sample size is too small, the 
conclusion you reach can probably be erroneous. Isn't the 
confidentiality index supposed to be 95 percent in this, and if 
your sample size is too small, how do you draw your 95 percent?
    Mr. Oxford. I apologize, Mr. Chairman, for not being a 
statistician. We have had NIST working with us.
    Mr. Stupak. Neither am I. But it is common sense. You all 
know that from looking at statistics. You try to get 95 
percent, isn't that true?
    Mr. Oxford. That is true.
    Mr. Stupak. And isn't that what you call for in your 
studies, 95 confidence before this is done?
    Mr. Oxford. There is a difference between 95 percent 
confidence and the 95 percent performance goal that we have.
    Mr. Stupak. So from what I gather, you are just picking 
data that justifies the certification and not passing testing 
that show the ASPs have problems.
    Mr. Oxford. I totally disagree with that approach.
    Mr. Stupak. I disagree with that approach, too. How about 
GAO? If the size is significantly significant, can you have a 
valid test.
    Mr. Aloise. That is one of our concerns about using that 
data, sir, among others. But this gives you kind of an idea 
what we have been trying to deal with as well. All we are 
looking for is what is the plan, what is the approach, tell us 
what your data is and we will go away. But it has been 
difficult to get those kinds of answers.
    Mr. Stupak. I understand that. Mr. Secretary, you serve at 
the pleasure of the President, right.
    Mr. Schneider. Yes, sir.
    Mr. Stupak. Do you think the President would be comfortable 
putting detection monitors on our borders that we don't know 
what the outer limit of detection is?
    Mr. Schneider. Mr. Chairman, I've been following this 
conversation. I do not understand quite frankly the details of 
the testing plan or what different words mean. I am having a 
hard time frankly following this discussion.
    Mr. Stupak. Let me help you.
    Mr. Schneider. Well, sir----
    Mr. Stupak. Let me help you. The outer limits, don't you 
think we ought to know the outer limits of the ASP before you 
put them on our borders.
    Mr. Schneider. I think it is important to know what the 
characterization of the performance is.
    Mr. Stupak. If you don't want me to use the words ``outer 
limit'' give me the word you want to use. Don't you think it is 
important.
    Mr. Schneider. I am not in a position to answer your 
question sir. I am not technically competent at this point in 
time.
    Mr. Stupak. This isn't technical. I am not a nuclear 
scientist. But any machine you put on our border that detect 
nuclear radiological devices coming in this country, don't you 
want to know, if it is an ASP or PVT, don't you want to know 
what we can find with that machine and what we can't find with 
that machine.
    Mr. Schneider. I think you have to know whether or not it 
meets the established performance requirements.
    Mr. Stupak. Is it one of the performance requirements to 
know what to detect and not detect.
    Mr. Schneider. Mr. Chairman, I have not studied the detail 
performance requirements to be able to make that assessment at 
this point.
    Mr. Stupak. But you are head of acquisition. Are you going 
to buy something that you know that doesn't detect things and 
what it can and cannot detect, or do you just buy it based on 
price?
    Mr. Schneider. No, we don't just buy based on price.
    Mr. Stupak. So you want to know what it can detect and what 
it cannot detect?
    Mr. Schneider. As this thing works its way up the chain I 
will ultimately get involved in the details to be able to make 
an informed recommendation to the Secretary.
    Mr. Stupak. Will you let me ask the same question I asked 
Mr. Oxford. You will be the one making the recommendations to 
Mr. Secretary Chertoff, won't you, on this ASP, you will be 
making the recommendation?
    Mr. Schneider. I will make several recommendations.
    Mr. Stupak. Whether or not you should purchase the ASP, 
will you make that recommendation?
    Mr. Schneider. The investment review board will make that.
    Mr. Stupak. And are you part of that investment review 
board?
    Mr. Schneider. Yes, I am.
    Mr. Stupak. You are chairman of it, are you not?
    Mr. Schneider. I am the vice chairman.
    Mr. Stupak. So before you make that recommendation to the 
Secretary, will your board and you, don't you want to know what 
this machine can and cannot detect, what are the limitations of 
this machine?
    Mr. Schneider. We are going to ask an awful lot of 
questions regarding the performance.
    Mr. Stupak. Will that be one of the questions you are going 
to ask?
    Mr. Schneider. I would like to review the data. I would 
want to know what the performance of this machine is.
    Mr. Stupak. Including the outer limits, wouldn't you want 
to know the performance on the outer limits of this machine?
    Mr. Schneider. On the surface, it sounds like that is a 
commonsense thing to want to know.
    Mr. Stupak. And also a security thing you would want to 
know, right?
    Mr. Schneider. I think it is important to understand the 
basis for the performance requirements which is the capability 
that is required.
    Mr. Stupak. Absolutely. If this machine has limitations, 
this ASP, we want to know that, don't we?
    Mr. Schneider. Well, if it has limitations and it cannot 
meet its established performance requirements, a key 
performance parameter, I think that is absolutely critical. But 
there was rationale that went into establishing each of the 
performance requirements. And so we would look for objective 
quality evidence, if you will, that, in fact, meets those 
performance requirements.
    Mr. Stupak. Mr. Secretary, what is the risk of a false 
negative here with an ASP machine that has been fully tested? 
What is the risk?
    Mr. Schneider. I can't assess that risk.
    Mr. Stupak. It can be catastrophic? Isn't that what you all 
said in your opening statements, right?
    Mr. Schneider. I didn't say that in my opening statement.
    Mr. Stupak. OK. Well, you heard other people say that at 
the table, right?
    Mr. Schneider. I heard other people say that.
    Mr. Stupak. So there is a risk of a false negative. So 
don't we want to know what the false negative is before we 
deploy it in an ASP?
    Mr. Schneider. I don't have the performance requirements in 
front of me, but I believe there are requirements in there for 
false negatives, as well as false positives.
    Mr. Stupak. Let me ask a couple questions, if I can Mr. 
Secretary. Your September 14 letter indicates that George 
Thompson, Deputy Director of Homeland Security, the HSI, will 
replace Mr. Higby as chair of the independent review and that 
you will be issuing a task order to fund this work, correct?
    Mr. Schneider. Yes, sir.
    Mr. Stupak. When did you and Mr. Thompson first discuss 
heading up the review of the HSI?
    Mr. Schneider. I discussed it with the head of the Homeland 
Security Institute on Thursday afternoon. I met with Mr. 
Thompson on Friday morning. This is last Friday.
    Mr. Stupak. OK. So Thursday afternoon, Mr. Higby was there, 
but after your discussion you decided to put----
    Mr. Schneider. You said Mr. Higby was there. Mr. Higby was 
where?
    Mr. Stupak. He was head of your HSI.
    Mr. Schneider. No, he was not the head of HSI.
    Mr. Stupak. OK. What was he?
    Mr. Schneider. He was and still is the dean of the Defense 
Acquisition University School of Program Management?
    Mr. Stupak. He was head of the review team, right?
    Mr. Schneider. He was head of the review team. I talked to 
him I think it was that morning about the fact or the evening 
before, I forget exactly when, that I was going to replace him.
    Mr. Stupak. OK. And then you decided to go with Mr. 
Thompson? You talked with him Thursday afternoon.
    Mr. Schneider. No. I talked to his boss, the head of the 
Homeland Security Institute on Thursday afternoon. I met with 
Mr. Thompson on Friday morning. I did not know Mr. Thompson. 
And for that matter, I don't know what the, with one exception, 
I don't know any of the people that are on the review team.
    Mr. Stupak. If you didn't know Mr. Thompson, then why did 
you decide to hire Mr. Thompson to head up your independent 
review?
    Mr. Schneider. Mr. Thompson is one of the senior officials 
at the Homeland Security Institute, or FFRDC. When I realized 
that perhaps I could use one of the senior folks at HSI to lead 
the effort, I talked to the head of the HSI. And I said I would 
like your recommendations for somebody to lead this particular 
effort. We worked with HSI in supporting other reviews of other 
DHS programs. And I was pleased--I've been pleased to date with 
the type of support we have got.
     He then basically gave me, I think it was, two 
recommendations. I looked at their backgrounds, and based upon 
my discussion with him I thought that Mr. Thompson would be the 
best choice. I wanted to confirm that by actually meeting with 
him. That was set up on Friday morning.
    Mr. Stupak. OK. HSI gets 100 percent of its funding from 
the Department of Homeland Security, doesn't it?
    Mr. Schneider. I believe it does.
    Mr. Stupak. Isn't it also the case that HSI has some of its 
employees detailed or embedded in DNDO?
    Mr. Schneider. I don't know if they are embedded at DNDO or 
not.
    Mr. Stupak. HSI doesn't have anyone detailed over to----
    Mr. Schneider. I have no idea.
    Mr. Stupak. OK.
    Mr. Schneider. I know Mr. Thompson is not embedded in DNDO.
    Mr. Stupak. If they are detailed or embedded in DNDO, could 
this have an impact on HSI's independence?
    Mr. Schneider. No, it doesn't. I get back to my comment 
what an FFRDC is. This is bread-and-butter type of work for 
FFRDCs. Whether it is in defense or the FAA, this is what they 
do.
    Mr. Stupak. Are there any HSI employees embedded in your 
office?
    Mr. Schneider. Not that I am aware of.
    Mr. Stupak. Do you have any HSI employees detailed to your 
office?
    Mr. Schneider. Not that I am aware of.
    Mr. Stupak. OK. Isn't it also the case some of the funding 
for HSI comes from your office?
    Mr. Schneider. We have an agreement with HSI to support our 
reviews. This is exactly what HSI----
    Mr. Stupak. You fund HSI, right?
    Mr. Schneider. I fund HSI within the scope of what an FFRDC 
is supposed to do in accordance with the interagency agreement 
we have established.
    Mr. Stupak. Isn't the case HSI leaders, including Mr. 
Thompson and Mr. Anderson, the HSI director, lobbied your 
office for work?
    Mr. Schneider. I have never met Mr. Anderson until I think 
it was Wednesday afternoon.
    Mr. Stupak. Right.
    Mr. Schneider. So I wouldn't have known him if I ran into 
him in the hallway.
    Mr. Stupak. So my question was has Mr. Thompson or Mr. 
Anderson, the HSI director, lobbied your office for work?
    Mr. Schneider. No. I have never--as I said, until Thursday, 
in the case of Mr. Anderson, I never met the guy.
    Mr. Stupak. Let us go back to your September 14 letter, the 
task order. Is the task order, is that a product of asking for 
work and soliciting work from HSI?
    Mr. Schneider. Right. We have an established agreement by 
which all work under the FFRDC is done. I would be happy to 
provide you----
    Mr. Stupak. Sure. And in your due diligence, you said you 
looked at HSI to make sure they are a good agency to get 
recommendations from, right?
    Mr. Schneider. What I said was HSI is our FFRDC. This is 
what FFRDCs do for a living.
    Mr. Stupak. Sure.
    Mr. Schneider. We are using them in other areas to support 
other reviews of individual programs. And they appear to be 
doing a good job. That is one of the reasons why I assumed 
whoever made the decision to select this group to be the FFRDC 
some years ago exercised pretty good judgment.
    Mr. Stupak. As the Under Secretary, you are aware that the 
Senate Homeland Security Appropriations Act of fiscal year 2008 
has noted lackluster performance by HSI, cut their core funding 
by 50 percent, and noted that their authorization to exist will 
expire in 2009. You are aware of all that?
    Mr. Schneider. No, I am not.
    Mr. Stupak. Isn't it also the case that HSI has had four 
directors in 3 years?
    Mr. Schneider. I don't know.
    Mr. Stupak. Isn't it also the case that the DHS contract 
with Anser, the company running the Homeland Security 
Institute, expires next year and they want a contract 
extension?
    Mr. Schneider. I am not involved--I am not aware of the 
details of the contract extension.
    Mr. Stupak. Could this need for an extension have any 
potential impact on HSI's ability to give an unvarnished 
assessment of the ASPs?
    Mr. Schneider. I would like to point out, again, that I 
have asked Mr. Thompson to head this team. The majority of the 
people that are on this team come from Oakridge, Brookhaven, 
Lawrence Livermore, and one outside person. And just like with 
DTRA, it was not a DTRA study. I have gone to No. 1, No. 2, and 
No. 3 guy at HSI to run this study. So I think to try to 
characterize it as an HSI study or review probably would not be 
totally accurate.
    Mr. Stupak. Well, the problem I am having from where I sit, 
the connectiveness between HSI and the Department of Homeland 
Security, you don't bite the hand that feeds you. And then yet 
we have a completely independent agency over here called 
Government Accountability Office, and you seem to ignore them, 
but you seem to embrace HSI, even though you have had three 
different directors in 4 years, the Senate says they are not 
doing a real robust job here, they have cut their funding, they 
are due to expire. I would think we are thinking of something 
so important as our homeland security and what a catastrophic 
risk this country could face if we don't do this right, you 
would look to the completely independent agency called 
Government Accountability Office and embrace their concerns and 
work with them to alleviate any concerns Congress would have, 
or more importantly, the American people would have about the 
ASPs being our main source of detection on the borders. You 
agree with that?
    Mr. Schneider. Yes, sir. First off, I think if you have six 
members of the team that are not part of HSI, and a team 
leader, and with the full knowledge of the fact that when this 
review is completed and presented to the Department we expect 
the whole team to participate in that----
    Mr. Stupak. Did you vet all six of those people on there?
    Mr. Schneider. I am sorry?
    Mr. Stupak. Did you vet all six of those people on this 
independent review team.
    Mr. Schneider. All six people are in the process of signing 
conflict of interest statements.
    Mr. Stupak. Did you vet them before?
    Mr. Schneider. When you say ``vet,'' what do you mean by 
``vet,'' sir?
    Mr. Stupak. Did you check their background? Did you make 
sure they had no conflict of interest and all of that?
    Mr. Schneider. First of all, I wanted to know who they 
were, whether or not they were qualified to be on this group.
    Mr. Stupak. Did you appoint these six people as your 
independent review?
    Mr. Schneider. No.
    Mr. Stupak. Who did appoint them?
    Mr. Schneider. First of all, it wasn't a question of 
appointment. I refer back to my testimony.
    Mr. Stupak. Who assigned these six people to the 
independent----
    Mr. Schneider. I asked the associate director of DTRA to 
assemble of a team of people. I relied on his judgment to pick 
the set of qualified people to run this particular review.
    Mr. Stupak. That gentleman is gone now, right?
    Mr. Schneider. But in the process of what he did initially, 
he identified several candidates that could participate.
    Mr. Stupak. Sure.
    Mr. Schneider. That was basically refined and completed 
after he completed--after his involvement ended. And the fact 
of the matter is they are all nuclear physicists or nuclear 
chemists.
    Mr. Stupak. Great. That is good. Our problem is we got 
changing directors, changing people, three people in 6 weeks, 
widening schedules, validation without the outer limits being 
known. We are talking about catastrophic risk here, I want to 
make sure we do it right.
    Mr. Schneider. Would you give me a chance to answer some of 
those?
    Mr. Stupak. Sure. I want to make sure we do it right so we 
don't have to worry about that catastrophic risk we have been 
talking about this morning. More importantly, I think the 
American people would like to make sure we have it done right.
    Mr. Schneider. All right. Let us take them one at a time. 
First of all, the schedule. Based upon a discussion that Mr. 
Oxford, the deputy commissioner from CBP and I had, it was at 
that point in time when the deputy commissioner from CBP said I 
really would like another 2 months of field validation testing.
    Mr. Stupak. Great.
    Mr. Schneider. And so that was the reason for the change in 
schedule.
    Mr. Stupak. But you won't promise me that you will let 
these tests be conducted, give GAO time to look at the validity 
of the tests before you make a recommendation on whether or not 
we should move forward with the ASP.
    Mr. Schneider. I think Mr. Oxford clearly stated it is the 
Secretary's prerogative as to how much information and what 
information----
    Mr. Stupak. I agree, but you have to make the 
recommendation. You have a responsibility to make the 
recommendation to the Secretary.
    Mr. Schneider. I have a responsibility to make the 
recommendation, and I will make that recommendation.
    Mr. Stupak. Will you promise me you won't make the 
recommendation until we do the outer limits testing we are 
talking about until GAO has a chance to look at it.
    Mr. Schneider. I will not make that commitment here today.
    Mr. Stupak. That is why, sir, we have to have this back and 
forth, because I think it is critically important and it is 
only common sense that someone looks at the tests and know the 
outer limits of the machines before you make a recommendation 
to spend $1.2 billion on ASPs that may or may not work. And the 
reason why we don't know if they may or may not work, because 
you are not giving the people time to test it, to make sure it 
is certified, so GAO can look at it, a truly independent 
agency, and say this is what we ought to do. If we are talking 
about catastrophic problems for this country, I would hope we 
get it right. Remember, we have to be right 100 percent of the 
time; the terrorist only has to be right once. Now that is not 
nuclear science, that is just common sense. Don't you agree 
with me?
    Mr. Schneider. Mr. Chairman, you had quite a lot of stuff 
in that particular statement. And I frankly can't remember 
everything you just rattled off.
    Mr. Stupak. It was just a quick summation of this hearing 
we had today. You work with this stuff day in and day out. I 
thought you would keep it straight. My question isn't that 
complex.
    Mr. Schneider. Sir, let me make it simple. I do not agree 
with everything you said. So whether or not you included it in 
that comprehensive statement or not, there is no way that----
    Mr. Stupak. Would you like the court reporter to read it 
back to you so then you could answer the question? We have that 
ability here. All I am asking, and you keep telling me, no, you 
won't, that you allow all the testing that is necessary, that 
GAO has a chance to analyze it, make the recommendations before 
you, before you, Mr. Oxford, and others make the 
recommendations to Secretary Chertoff to spend $1.2 billion on 
a machine we don't know works or not work, when your 
statistical sample is so small it is not even significant in 
the whole equation, but you are relying upon it. Those are the 
things we brought out here so far today, and that is all I am 
asking you to do. Common sense. Don't you think?
    Mr. Schneider. The recommendation on whether or not to 
spend the money as part of a production and deployment would be 
made only after and if the Secretary makes a certification 
regarding the performance of the system. It is a sequential 
step. So from my standpoint, the issues regarding the 
performance of the system will have been thrashed out, 
evaluated, assessed. The Secretary is a very demanding 
decision-maker. He asks for lots of information. He will 
probably, as in my discussion with him, ask the GAO to come in 
and brief him so he can quiz them. And he will factor all that 
information into making the certification regarding 
performance.
    Mr. Stupak. So you know the Secretary is going to ask GAO 
in before he makes his decision? You know that? Do you know 
that?
    Mr. Schneider. Mr. Chairman, I talked to the Secretary. He 
explained his approach. It is to get information from multiple 
sources.
    Mr. Stupak. And he said GAO?
    Mr. Schneider. In this particular effort, he told me he 
may, in fact, ask the GAO to come in and brief him.
    Mr. Stupak. Now ``may'' is discretionary. It is not 
mandatory, right? May? He may ask GAO? And he may not ask GAO?
    Mr. Schneider. I think that is the prerogative of the 
Secretary.
    Mr. Stupak. Sure it is. But isn't it your responsibility to 
the Secretary and to the American people to make sure all the 
questions on testing, whether it is outer limits, are done and 
fully evaluated before you make that recommendation?
    Mr. Schneider. I think it is my responsibility to the 
Secretary to give him my best advice based upon the testing 
that has been done to date, what testing has not been done, 
what testing may be planned in the future, and to provide that 
as part of my overall recommendation on whether he ought to 
certify the performance.
    Mr. Stupak. I agree with you. But let me ask you this. Have 
you read GAO's report on the ASP testing? Have you read it?
    Mr. Schneider. Which report, sir? There is a lot of GAO 
reports.
    Mr. Stupak. Today's testimony.
    Mr. Schneider. I didn't get this testimony, unfortunately, 
until during the hearing, when you asked me whether or not I 
agreed with those recommendations. So I was slightly stumbling 
when you asked me if I agreed with all four recommendations. I 
hadn't read it at the time you asked me the questions. So if 
that is the report, during the break I scanned the report.
    Mr. Stupak. OK. Do you agree with what GAO is saying?
    Mr. Schneider. I do not agree with the recommendations.
    Mr. Stupak. That is not what I asked you. I said do you 
agree with the report on the ASP testing?
    Mr. Schneider. I do not understand in enough detail the 
details around the different views that you have been talking 
about here today.
    Mr. Stupak. If you don't understand this, weren't you 
supposed to certify this tomorrow or yesterday? Wasn't 
September 17----
    Mr. Schneider. I don't certify anything. The Secretary is 
the one that certifies.
    Mr. Stupak. All right, I am sorry, made your recommendation 
to the Secretary. Weren't you supposed to do that yesterday?
    Mr. Schneider. The schedule was changed.
    Mr. Stupak. Right. So I would think you would be more on 
top of this, especially the GAO report, if you were supposed to 
make a recommendation this week. What date do you intend to get 
involved in the details of this certification recommendation?
    Mr. Schneider. We would start very shortly over the next 
week or two laying out the detailed schedule for what steps 
would be taken prior to, and roughly a rough time frame by 
which the field validation testing would be completed, what 
would be an appropriate amount of time for analyzing the 
results, what would be an appropriate amount of time for the 
results of that to be provided to the review team, and then 
kind of work out the schedules as to leading up to a session 
with the Secretary. So it obviously would be after the 2-month 
extension on the field validation testing.
    Mr. Stupak. After you make your recommendation to the 
Secretary, does he have a certain amount of time within which 
he has to make a decision?
    Mr. Schneider. There is no prescribed--as far as I am 
aware, there is no prescribed time limit for that. No, as far 
as I know.
    Mr. Stupak. OK. Mr. Whitfield, you have any questions?
    Mr. Whitfield. No. Mr. Chairman, I appreciate your having 
this hearing. And I would just, in concluding, as a conclusion, 
state that while we know there are several unanswered questions 
regarding the use of the ASP in primary inspections, most of 
the scientists that at least we have talked to, and Government 
officials, agree that the agency should proceed with a limited 
deployment for secondary inspections. And I don't think anyone 
would suggest that ASP monitors in secondary screenings 
wouldn't provide a dramatic improvement over the hand-held 
devices that are currently being used. So with that, Mr. 
Chairman, I have no other questions.
    Mr. Stupak. Let me just ask one more question, Mr. Aloise, 
if I may, of the Government Accountability Office. Has GAO 
reviewed the phase 3 and blind tests?
    Mr. Aloise. No, sir.
    Mr. Stupak. OK. Has GAO examined the independent review 
process?
    Mr. Aloise. No, sir.
    Mr. Stupak. Well, we need GAO to continue its review of 
these tests and injection studies, especially on the 
independent review. So Mr. Aloise, if you would, would GAO 
agree to undertake that additional work as part of your ongoing 
review of the ASP?
    Mr. Aloise. We certainly would intend to, yes.
    Mr. Stupak. OK. They are willing to do it. Are you willing, 
Mr. Secretary, to make sure that they get the information so 
they can do their review of the phase 3, the blind tests, and 
examine your independent review process so they can enlighten 
Congress on it?
    Mr. Schneider. I agree with most of that. I do not agree 
that they ought to be involved in our independent review 
process. I believe that is within the purview of the Secretary 
to get advice from whoever he wants.
    Mr. Stupak. So you don't think----
    Mr. Schneider. And I don't believe--I think that's part of 
the predecisional making deliberation process on behalf of the 
Secretary. So I would not agree at this point in time to--I 
think any concerns they may have about the testing that has 
been done to date and the testing plans would be valuable 
input, but I do not expect, nor would I, at this point in time, 
agree to provide them access to the details of what that review 
team does.
    Mr. Stupak. OK. But you are going to give them all the 
information, the data on phase 3, the blind testing, and 
injection studies.
    Mr. Schneider. I think Mr. Oxford has already testified 
today about information that has been provided and information 
that will be continuing to be provided as part of their ongoing 
rolling review, so to speak.
    Mr. Stupak. Why is it then they testified today they can't 
get the information? Have you, GAO, received all the 
information you need from DNDO or from the Secretary?
    Mr. Aloise. We have not received the blind tests or phase 3 
tests because they are still analyzing that, that is correct.
    Mr. Stupak. And we don't know when that is going to be 
done, but when it is done you, Mr. Secretary, you will make 
sure it gets to the GAO so they can review it?
    Mr. Oxford. Mr. Chairman, if I could take that.
    Mr. Stupak. Sure.
    Mr. Oxford. We have already committed to doing that. As 
soon as those test reports are completed, they will be given to 
the GAO.
    Mr. Stupak. OK.
    Mr. Oxford. They have the data. We are finalizing the 
actual report that they can work from.
    Mr. Stupak. OK. Will you make sure they get the injection 
study data, too?
    Mr. Oxford. The injection studies will take about a year, 
but we can certainly talk about the plan for how the injection 
studies will go forth, yes, sir.
    Mr. Stupak. Well, when it is done in a year, you will give 
it to them?
    Mr. Oxford. Absolutely.
    Mr. Stupak. So there really shouldn't be a certification 
for at least a year, because the injection studies won't be 
done, right?
    Mr. Oxford. No, sir.
    Mr. Stupak. You will do certification before the injection 
studies are completed?
    Mr. Oxford. We may make a recommendation, because we think 
most of the injection study work and future testing will be 
primarily based on what the ranking member said, based upon the 
decision for primary, not secondary deployment.
    Mr. Stupak. Any questions, Mr. Whitfield?
    Mr. Whitfield. Mr. Schneider, you are having these conflict 
of interest issues are certainly being monitored by the 
Department, though, correct?
    Mr. Schneider. Yes, sir.
    Mr. Whitfield. OK. Thank you.
    Mr. Stupak. OK. No further questions. I will dismiss this 
panel and thank you all for coming today. I am sure before this 
thing is validated we may have you back, or maybe we will have 
the Secretary back. But thank you for coming and thank you for 
answering our questions. That concludes all the questions. I 
want to thank all of our witnesses for coming today and your 
testimony.
     I ask for unanimous consent that the hearing record will 
remain open for 30 days for additional questions for the 
record.
    Without objection, the record will remain open. I ask 
unanimous consent that the contents of our evidence binder 
there in front of Mr. Oxford, with the exception of those 
documents marked for official use only, be entered into the 
record. In addition, the committee will retain a copy of the 
full evidence binder for the record. Without objection, the 
documents will be entered into the record. That concludes our 
hearing. Without objection, the meeting of this subcommittee is 
adjourned. Thank you all for being here.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
